<html>
<title> - PIRACY AGAINST U.S.-FLAGGED VESSELS: LESSONS LEARNED</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
          PIRACY AGAINST U.S.-FLAGGED VESSELS: LESSONS LEARNED

=======================================================================

                                (111-35)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              May 20, 2009

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                  U.S. GOVERNMENT PRINTING OFFICE
49-954                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
ELLEN O. TAUSCHER, California        TODD RUSSELL PLATTS, Pennsylvania
LEONARD L. BOSWELL, Iowa             SAM GRAVES, Missouri
TIM HOLDEN, Pennsylvania             BILL SHUSTER, Pennsylvania
BRIAN BAIRD, Washington              JOHN BOOZMAN, Arkansas
RICK LARSEN, Washington              SHELLEY MOORE CAPITO, West 
MICHAEL E. CAPUANO, Massachusetts    Virginia
TIMOTHY H. BISHOP, New York          JIM GERLACH, Pennsylvania
MICHAEL H. MICHAUD, Maine            MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      CONNIE MACK, Florida
DANIEL LIPINSKI, Illinois            LYNN A WESTMORELAND, Georgia
MAZIE K. HIRONO, Hawaii              JEAN SCHMIDT, Ohio
JASON ALTMIRE, Pennsylvania          CANDICE S. MILLER, Michigan
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
HEATH SHULER, North Carolina         VERN BUCHANAN, Florida
MICHAEL A. ARCURI, New York          ROBERT E. LATTA, Ohio
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico

                                  (ii)

  
?

        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                 ELIJAH E. CUMMINGS, Maryland, Chairman

CORRINE BROWN, Florida               FRANK A. LoBIONDO, New Jersey
RICK LARSEN, Washington              DON YOUNG, Alaska
GENE TAYLOR, Mississippi             HOWARD COBLE, North Carolina
BRIAN BAIRD, Washington              VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          TODD RUSSELL PLATTS, Pennsylvania
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
MICHAEL E. McMAHON, New York
LAURA A. RICHARDSON, California
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Caponiti, James, Acting Administrator, Maritime Administration...     4
Doell, Paul, Director of Legislative Affairs, American Maritime 
  Officers International Union...................................    29
Frothingham, Ed, Principal Director, Office of the Deputy 
  Assistant Secretary of Defense for Counternarcotics and Global 
  Threats, Department Of Defense; accompanied by Charles Ikins, 
  Director, East and Southern Africa Policy, Office Of African 
  Affairs, Office of the Secretary of Defense....................     4
Johnsen, Erik L., President, Waterman Steamship Corp.............    29
Salerno, Rear Admiral Brian, Assistant Commandant for Marine 
  Safety, Security and Stewardship...............................     4
Shapiro, Philip J., President and CEO, Liberty Maritime 
  Corporation....................................................    29
Tellez, Augustin, Executive Vice President, Seafarers............    29
Van Loo, Bill, Secretary-Treasurer, Marine Engineers' Beneficial 
  Association; accompanied by Michael J. Rodriguez, Executive 
  Assistant to the President, International Organization of 
  Masters, Mates & Pilots........................................    29
Volkle, Jr., Arthur J., Vice President, American Cargo Transport.    29

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Cummings, Hon. Elijah E., of Maryland............................    42
McMahon, Hon. Michael E., of New York............................    47

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Caponiti, James..................................................    49
Doell, Paul......................................................    57
Frothingham, Edward..............................................    64
Johnson, Erik L..................................................    73
Salerno, Rear Admiral Brian......................................    78
Shapiro, Philip J................................................    86
Volkle, Jr., Arthur J............................................    93

[GRAPHIC] [TIFF OMITTED] T9954.001

[GRAPHIC] [TIFF OMITTED] T9954.002

[GRAPHIC] [TIFF OMITTED] T9954.003

[GRAPHIC] [TIFF OMITTED] T9954.004

[GRAPHIC] [TIFF OMITTED] T9954.005

[GRAPHIC] [TIFF OMITTED] T9954.006

[GRAPHIC] [TIFF OMITTED] T9954.007

[GRAPHIC] [TIFF OMITTED] T9954.008

[GRAPHIC] [TIFF OMITTED] T9954.009

[GRAPHIC] [TIFF OMITTED] T9954.010

[GRAPHIC] [TIFF OMITTED] T9954.011



    HEARING ON PIRACY AGAINST U.S. FLAGGED VESSELS: LESSONS LEARNED

                              ----------                              


                        Wednesday, May 20, 2009

                   House of Representatives
          Subcommittee on Coast Guard and Maritime 
                                    Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Elijah 
E. Cummings [chairman of the Subcommittee] presiding.
    Mr. Cummings. This hearing is called to order.
    On February 4th, 2009, I convened this Subcommittee to 
examine international piracy on the high seas, particularly in 
the Horn of Africa region.
    At that time, no U.S.-flagged vessels had been attacked by 
pirates, and the general conclusion among our witnesses was 
that ships should focus on implementing the anti-piracy 
measures that had been identified as likely to thwart attempted 
pirate attacks, such as transiting the Horn of Africa at night 
and at the highest possible rate of speed, and employing non-
lethal measures such as water hoses.
    Now, however, we convene in very changed circumstances. Two 
U.S.-flagged vessels, the MAERSK ALABAMA and the LIBERTY SUN, 
have been attacked by Somali pirates.
    One of the attacks resulted in the taking of an American 
Captain, Richard Phillips, hostage. He was freed only through 
the decisive intervention of U.S. military forces, including 
Navy SEALs, who eventually killed the pirates holding Captain 
Phillips after it became clear his life was in imminent danger.
    These attacks against the MAERSK ALABAMA and the LIBERTY 
SUN are the first known pirate attacks against a United States-
flagged vessel since the end of our war with the Barbary 
pirates in the early 1800s.
    These attacks, conducted by young men from the desperately 
poor nation of Somalia, who have few legitimate opportunities 
to earn a living and who arm themselves with RPGs and AK-47s 
and take to the seas in small boats, represent in many ways a 
threat that our Nation confront.
    That said, the United States-flagged merchant fleet has 
always been able to rely on the protection of the United States 
Navy to ensure its safety. As we saw with the MAERSK ALABAMA, 
that Navy is more than capable of handling this current threat.
    Nonetheless, at the present time, it appears that the 
United States-flagged fleet is essentially being left to handle 
its immediate security needs by itself.
    On May 12th, the Coast Guard issued Maritime Security 
Directive 104-6, which purports to ``provide the maritime 
industry with specific, risk-based measures to take, to deter, 
detect or disrupt piracy.''
    Specifically, the Directive requires U.S.-flagged vessels 
to adopt an anti-piracy plan before entering high risk waters 
and to employ those measures known to help prevent pirate 
attacks, including transiting through established transit 
lanes, utilizing erratic course changes, and traveling at the 
highest possible speeds.
    Additionally, the Directive requires vessels to 
``supplement ship's crew with armed or unarmed security based 
on a piracy specific vessel threat assessment conducted by the 
operator and approved by the Coast Guard.''
    While these are sensible recommendations that a merchant 
vessel should follow to protect itself while transiting waters 
where pirate attacks are common, there is a broader question to 
be considered: Why is it that the best our Nation appears to 
have to offer our merchant mariners at this time is 
instructions on the steps they should take to protect 
themselves?
    It is not at all clear to me why the Navy or, in the 
absence of a willingness to act on the part of the Navy, the 
Coast Guard, isn't providing embarked military personnel on the 
few U.S.-flagged vessels that transit the Horn of Africa 
region, most of which, I note, are carrying U.S. Government 
impelled cargoes.
    While I have no doubt that the Navy would respond 
immediately if another attack occurs against a U.S.-flagged 
vessel, the timeliness of their response could be hindered if 
Navy assets are far from the scene of the attack.
    And, sadly, in the time that it takes the Navy to respond 
to an incident, another hostage situation may have been 
created, putting another United States mariner at the mercy of 
pirates who have already announced their intention to take 
revenge against U.S. mariners for the deaths of their pirate 
colleagues in the MAERSK ALABAMA incident.
    Given these realities, I don't believe the Department of 
Defense would really argue that U.S.-flagged vessels are safer 
if they are left to protect themselves. Nor do I think the DOD 
would argue that it is preferable to respond to an incident 
rather than to prevent an incident from occurring.
    That said, the issue we must explore is the following. We 
have long argued that we need a U.S.-flagged merchant fleet to 
carry U.S. Government cargoes and to provide sealift capacity 
to support DOD needs in time of war and national emergency.
    For that reason, we have created the Maritime Security 
Program, which provides direct payments to U.S.-flagged ships 
to ensure that they are available when the Government needs 
them.
    Given this, isn't it in our national interest to utilize 
the very limited U.S. military resources that would be 
necessary to protect our U.S.-flagged fleet rather than leaving 
them to implement their own defensive measures?
    We look forward to hearing from our witnesses on this 
critical issue today.
    With that, I recognize our distinguished Ranking Member, 
Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman, and good morning to 
everyone. Thank you, Mr. Chairman, for calling this hearing.
    As you pointed out, since the Subcommittee's last hearing 
on this topic, Somali pirates have increased their attacks on 
merchant vessels operating in the Gulf of Aden and the Indian 
Ocean, to include the unsuccessful hijacking of the U.S. vessel 
MAERSK ALABAMA, which was repelled by the vessel's crew and 
ultimately by our military forces. Despite this and other 
successes, Somali pirates are currently in control of at least 
15 ships.
    As I said at our last hearing, I think this type of piracy 
cannot be tolerated by the United States or the international 
community, and this hearing provides us with a chance to 
examine the ways to respond to the ongoing and widening threat.
    As a result of the continued piracy off the coast of 
Somalia, many in the maritime community are looking at ways to 
enhance security of merchant vessels, including the placement 
of armed security personnel aboard ships operating in high-risk 
areas.
    A vessel's crew has every right under U.S. and 
international law to defend themselves and the vessel, 
including the use of deadly force. However, I do have some 
concerns about just how a vessel operator and crew goes about 
arming the vessel. How many personnel should be armed? What are 
the training requirements? Can arms be taken into foreign 
ports? And what are the legal ramifications for the crew and 
vessel owner if the vessel is defended using firearms?
    I hope that we will be able to address these issues and get 
some of the questions answered today.
    Recently, the Coast Guard issued new security guidelines 
that vessels operating in these areas must comply with. Several 
of these new guidelines will require changes to vessel 
procedures, and I look forward to discussing with our witnesses 
from the operating and labor communities how they intend to 
implement these changes.
    I also look forward to hearing your views on whether the 
United States military personnel should or could be placed on 
board U.S.-flagged merchant vessels as a deterrent to piracy.
    Lastly, I hope the Coast Guard will address how they intend 
to certify or monitor the capacities added aboard U.S. vessels.
    Piracy is a major concern to our Nation and the American 
taxpayers, and, indeed, all of the world. Americans are 
directly paying into maintaining an anti-piracy presence in the 
Horn of Africa region, and consumers will ultimately absorb the 
increased costs associated with rising insurance rates and 
rerouted or lengthened voyages due to the threat of piracy.
    It is incumbent on us to examine ways to minimize and, in 
fact, end this threat and its impact on world commerce and our 
own national economy.
    I want to thank the witnesses for their testimony today, 
and I look forward to addressing these issues and others with 
the Subcommittee as we move forward.
    Again, thank you, Mr. Chairman.
    Mr. Cummings. Thank you very much.
    There being no opening statements, we will proceed right to 
our panel. Rear Admiral Brian Salerno, Assistant Commandant for 
Marine Safety, Security and Stewardship; Mr. Ed Frothingham, 
Principal Director, Office of the Deputy Assistant Secretary of 
Defense for Counternarcotics and Global Threats, Department of 
Defense; Mr. Charles Ikins, Director, East and Southern Africa 
Policy, Office of African Affairs, Office of the Secretary of 
Defense; and Mr. James Caponiti, Acting Administrator, Maritime 
Administration.
    Rear Admiral, welcome. Welcome all. We welcome all of you 
and we will hear from you, Rear Admiral.

 TESTIMONY OF REAR ADMIRAL BRIAN SALERNO, ASSISTANT COMMANDANT 
 FOR MARINE SAFETY, SECURITY AND STEWARDSHIP; ED FROTHINGHAM, 
PRINCIPAL DIRECTOR, OFFICE OF THE DEPUTY ASSISTANT SECRETARY OF 
DEFENSE FOR COUNTERNARCOTICS AND GLOBAL THREATS, DEPARTMENT OF 
   DEFENSE; ACCOMPANIED BY CHARLES IKINS, DIRECTOR, EAST AND 
 SOUTHERN AFRICA POLICY, OFFICE OF AFRICAN AFFAIRS, OFFICE OF 
     THE SECRETARY OF DEFENSE; AND JAMES CAPONITI, ACTING 
             ADMINISTRATOR, MARITIME ADMINISTRATION

    Admiral Salerno. Good morning, Mr. Chairman, distinguished 
Members of the Committee. I appreciate the opportunity to 
appear before you and discuss maritime piracy and the Coast 
Guard's role in addressing this threat to freedom of the seas, 
to the safety of shipping, and, most importantly, to the safety 
of mariners.
    In response to the threat of piracy off the Horn of Africa, 
the Coast Guard has been working closely with our Government 
and industry partners, with the International Maritime 
Organization, and through the International Contact Group on 
Piracy off the Coast of Somalia to strengthen preventative 
measures for merchant ships and to develop international 
regimes for the prosecution of apprehended pirates.
    We have also been involved operationally by providing 
forces, within the limits of our capacity to do so, to the U.S. 
Central Command, some of which have been, in turn, assigned to 
on-scene counterpiracy efforts.
    Although many nations have provided naval forces to the 
region to counter the threat of piracy, it remains equally 
important for merchant vessels to take appropriate measures to 
reduce their vulnerability to attacks.
    To best identify realistic measures, particularly in light 
of evolving pirate tactics, the Coast Guard has been working 
closely with domestic and international maritime industry 
leveraging longstanding relationships forged in our 
transportation safety and security roles. As new security 
guidelines are developed, the Coast Guard updates its 
requirements for U.S.-flagged vessels to modify their vessel 
security plans, plans which are required by the Maritime 
Transportation Security Act.
    The mechanism by which we convey specific anti-piracy 
planning requirements is the Maritime Security Directive, which 
you mentioned in your statement, Mr. Chairman. The most recent 
directive pertaining to anti-piracy measures was released last 
week, and we are continuing to work with the industry and the 
interagency to implement its provisions.
    It is important to note that the two U.S.-flagged pirate 
attacks that were mentioned in your statement, Mr. Chairman, 
the MAERSK ALABAMA and the LIBERTY SUN, each had self-
protection procedures in place and their crews were prepared to 
take the appropriate actions. This exemplifies the kind of 
preplanning that we want all U.S. ships to undertake.
    Internationally, the International Maritime Organization 
has been very active on this issue. As head of the U.S. 
delegation to IMO, the Coast Guard has been deeply involved 
with other flag states and with industry NGOs to revise anti-
piracy guidelines applicable to international merchant fleets. 
Piracy is on IMO's agenda for the Maritime Safety Committee 
meeting scheduled to convene next week in London, and we will 
actively participate in that meeting.
    The Coast Guard has also actively participated in IMO-
sponsored regional initiatives to improve international 
governance, including the development of the Djibouti Code for 
Regional Cooperation. We have assisted the State Department in 
the development of a bilateral agreement with Kenya for the 
prosecution of apprehended pirates, and we have been heavily 
engaged in the Contact Group on Piracy off the Coast of 
Somalia. In this latter effort, we co-led with the U.S. 
Maritime Administration a working group focused specifically on 
industry self-protection measures.
    When piracy events do occur, swift communications among 
involved U.S. Government agencies is exceptionally important. 
The mechanism for doing this is the Maritime Operational Threat 
Response process, or MOTR. MOTR has been used in over 600 cases 
since it was first established in 2006; however, the recent 
MAERSK ALABAMA and LIBERTY SUN cases were the first ones 
related to piracy. Post-incident debriefs within the 
interagency indicate that the process worked very well. It 
ensured complete coordination among multiple agencies having 
direct responsibilities for different aspects of the 
Government's response.
    As mentioned earlier, the Coast Guard has forces in the 
region under the operational control of the U.S. Central 
Command. Coast Guard law enforcement detachments have been 
specifically assigned to Combined Task Force 151, where they 
augment U.S. Navy vessel boarding teams. These teams have been 
directly involved in the apprehension of pirates in several 
recent cases. The law enforcement detachment's expertise in 
vessel boardings at sea, as well as collecting evidence, 
providing witness statements, and handling suspects, has been 
an asset to CENTCOM.
    In closing, Mr. Chairman, I want to assure you that the 
Coast Guard is committed to fulfilling its statutory and 
regulatory responsibilities for the safety and the security of 
U.S. merchant vessels and crews. We will remain engaged with 
the industry in the implementation of anti-piracy measures 
identified in the Directive, as well as with the international 
maritime community through our role in IMO and the Contact 
Group.
    Thank you for the opportunity to be here today, and I look 
forward to your questions.
    Mr. Cummings. Mr. Frothingham?
    Mr. Frothingham. Thank you, Chairman Cummings, Ranking 
Member LoBiondo, distinguished Members of the Committee. We 
appreciate the opportunity to appear before you and testify. I 
ask that the testimony we present be admitted and that we just 
make small, short comments.
    Mr. Cummings. So ordered.
    Mr. Frothingham. Thank you.
    Sir, addressing piracy is important to the United States 
and to the world. Freedom of the seas is crucial for national 
security and international commerce. DOD's strategic goals are 
to detect, deter, and disrupt piracy, and assist in prosecution 
against pirates that are caught.
    But we have to put this into context. Take the Gulf of 
Aden, for example. There are 50 commercial vessels transiting 
the Gulf of Aden on any given day, and on any given day three 
to seven U.S.-flagged vessels are transiting as well. In 2008, 
there were over 33,000 vessels transiting the Gulf of Aden and 
there were 112 pirate attacks. Of those 112 pirate attacks, 42 
were successful. By the numbers, that is less than half a 
percent.
    Now, we can't ignore pirate attacks, and we aren't 
suggesting that. But the low numbers have grave implications 
for us with regard to military allocation of resources.
    Further, the targets that we are talking about, as you 
pointed out, are very difficult to track, and, when not engaged 
in pirate attacks, they blend in with the rest of the traffic. 
Further, the attacks are rapid and in short duration and hard 
to respond to in any timely fashion, even if you are just over 
the horizon.
    Finally, after the attacks are concluded, the pirates mange 
to get to their safe havens and blend in with the population, 
and are difficult to get to for several reasons, not the least 
of which is sovereign territory.
    The point of this is that, for the reasons I have just 
stated, it is regrettable that there is no clear understanding 
that the global military forces, much like civilian police 
forces, cannot always intervene if criminals strike. As a 
result, many shippers have been slow to invest adequately in 
basic low-cost anti-piracy measures that would render their 
ships far less vulnerable.
    Working with other departments and agencies, we are working 
on a comprehensive strategy and are seeking engagement for 
other nations to deal with the threat of piracy. Today, in the 
Gulf of Aden, for example, there are 34 vessels from over 15 
nations working together to stop this threat.
    In conclusion, DOD will continue to respond and support 
U.S.-flagged vessels, but at this present time that is all we 
can do. Thank you.
    Mr. Cummings. Thank you very much.
    Mr. Ikins.
    Mr. Ikins. Mr. Chairman and distinguished Members of the 
Committee, I appreciate this opportunity to testify about the 
growing problem of piracy off the Coast of Somalia. My name is 
Charles Ikins, and I serve within the Office of African Affairs 
at the Office of the Secretary of Defense.
    Reducing incidents of piracy is important both to the 
United States and to the international community. Piracy 
endangers innocent mariners, disrupts commerce, causes economic 
damage to shipping companies, and contributes to instability 
ashore, especially in Somalia.
    From a regional perspective, our goals, as Mr. Frothingham 
has said, are deterrence, disruption, interdiction, and 
prosecution. But achieving these will be challenging for 
several reasons.
    First, the challenge of space. The pirates operate in a 
total sea space four times the size of Texas, which is over a 
million square nautical miles.
    Second, there is no effective and reliable central 
governing authority or capacity in Somalia. At the moment, 
pirates can operate with impunity from coastal fishing villages 
as long as they have the support of the local Somali clan 
leadership. Though regional governments in Somaliland and 
Puntland have demonstrated some capacity to provide limited 
services, including law enforcement, in most respects, Somalia 
remains ungoverned, allowing pirates to use coastal villages as 
safe havens.
    Third, even when pirates are captured, serious gaps remain 
in the international community's ability to prosecute them for 
their crimes, and thus an effective legal deterrent. Although 
all states may exercise jurisdiction over pirates as a matter 
of international law, some states still lack the appropriate 
domestic laws to prosecute pirates in their own courts when the 
act of piracy occurred on the high seas. Other states have 
appropriate domestic legal frameworks but lack the 
prosecutorial and judicial capacity to effectively hold pirates 
accountable. In this regard, we applaud Kenya for agreeing to 
take on the task of prosecuting pirates.
    In such a large area of water, and with so many other 
critical national security priorities, it is not possible for 
our military to prevent or intervene in each and every attack. 
But with the appropriate industry-led, onboard security 
measures in place, the vast majority of pirate attacks can be 
thwarted. Most pirates are opportunistic criminals. Whenever 
possible, they will focus on the easy targets and avoid the 
difficult. Our main task now is to assist commercial carriers 
in making their ships hard targets.
    Thank you for offering me this opportunity to testify, and 
I welcome your questions and comments.
    Mr. Cummings. Thank you very much.
    Mr. Caponiti.
    Mr. Caponiti. Good morning, Chairman Cummings, Ranking 
Member LoBiondo, and Members of the Subcommittee. I am pleased 
to have the opportunity to appear before you today to discuss 
the serious threats stemming from the ongoing piracy problems 
in the waters off of Somalia. Throughout 2008 and continuing 
into 2009, the global piracy situation has grown substantially 
worse, particularly in an ever-expanding area off the coast of 
Somalia, where more than 20,000 vessels transit each year.
    The impact of piracy has been very significant, but the 
American public has only recently become aware of the situation 
with the attacks on two American-flagged vessels, both of which 
were carrying food aid, cargo for Somalia.
    Acts of piracy threaten freedom of navigation and the flow 
of commerce. Off the Horn of Africa, piracy attacks disrupt the 
flow of critical humanitarian supplies. In most instances, 
pirates demand millions of dollars in ransom for the release of 
hostages, ships, and cargoes.
    Press reports indicate that, in 2008, pirates received an 
estimated $30 million in ransoms for the release of seajacked 
vessels. In 2008, 42 vessels were seized by pirates operating 
off the coast of Somalia and, globally, 889 mariners were held 
hostage by pirates as part of ransom demands.
    In 2009, the number of attacks continues to rise, but the 
success rate has been reduced. We had a recent spurt in April, 
though, that was a little bit out of character with the rest of 
what has been going on. In total, there have been more than 27 
successful seajackings in 2009, with more than 476 seafarers 
captured, and one seafarer was killed by a pirate attack last 
week.
    The Gulf of Aden, which links the Mediterranean Sea and the 
Suez Canal with the Indian Ocean, is one of the busiest 
shipping choke points in the world. An average of 50 commercial 
vessels transit the Gulf daily, and many of these vessels are 
vulnerable to attacks. On average, about one U.S. commercial 
vessel enters the area each day, and on any given day about 
three to seven vessels are in the waters that we are talking 
about.
    Many of these U.S.-flagged vessels carry Department of 
Defense cargo bound for Operations Iraqi and Enduring Freedom, 
and U.S.-flagged vessels transiting the region also carry 
humanitarian cargoes generated by the U.S. Agency for 
International Development or other international organizations 
to the Horn of Africa, including Djibouti, Somalia, and other 
countries in East Africa or South Asia.
    Early this year, MARAD intensified its efforts in the fight 
against piracy to further improve coordination between industry 
and the various navies participating in the Gulf of Aden, to 
provide voluntary assessments of security on U.S. vessels, to 
further establish best management practices to prevent piracy, 
and to bring industry's perspectives and ideas to the 
interagency process.
    Since maritime labor is uniquely vulnerable to pirate 
attacks with mariners killed, harmed or held hostage as part of 
ransom demands, MARAD has included maritime labor in 
discussions and meetings. The most recent MARAD broadly focused 
industry and interagency meeting was held on April 23rd at DOT 
headquarters.
    MARAD has also participated in senior level industry and 
Government discussions and scoping sessions with a defense 
transportation system focus led by U.S. Transportation Command 
and the National Defense Transportation Association Military 
Seal Committee. The most recent meeting of this kind included 
Vice Admiral Gortney, who used firsthand perspective as the 
commander of Naval Forces Central Command.
    The United States leads efforts to enhance industry's self-
awareness as the lead for Working Group 3 of the Contact Group, 
the co-lead with the Coast Guard of the Working Group 3 of the 
Contact Group. MARAD led the delegation and Coast Guard chaired 
the Working Group meeting in February, and MARAD presented 
international industry-developed best practices at the Contact 
Group Plenary in Cairo in March.
    MARAD has also supported the dissemination of counterpiracy 
guidance, and we have worked to better the coordination between 
military, civilian, and operators in the region. MARAD likewise 
provides U.S.-flagged projected schedules on the waters off 
Somalia to the National Maritime Intelligence Center and vessel 
tracking information on U.S.-flagged vessels to appropriate 
military authorities.
    Since the recent attacks, there are additional BMPs that 
have been learned, and these are being evaluated and we will 
provide our views to Coast Guard as they consider revision to 
MARSEC directives. Given limited military resources available 
to fully protect commercial shipping in the waters off Somalia, 
there is an increasing focus on the issue of shipping companies 
hiring private armed security personnel to protect their 
vessels while transiting the waters off Somalia.
    However, there are many complicated factors which must be 
addressed before the industry as a whole can adopt these 
recommendations. These include the need to develop appropriate 
standards for armed security providers, compliance with port 
state restrictions on arms aboard merchant vessels entering 
many ports in the world, consideration and reaction to the 
potential escalation of violence due to the presence of arms on 
board commercial vessels, issues of safety for the crew and 
vessel, rules on the use of force, design constraints of 
vessels to carry additional personnel, insurance and liability 
issues, and many other related factors.
    Clearly, the maritime industry needs the Government's 
assistance in this area to set or guide standards and measures 
of performance, and MARAD is actively engaged with other 
agencies in understanding and developing the needed guidance on 
the use of armed security.
    The U.S. Coast Guard recently issued an updated MARSEC 
Directive that requires the implementation of several security 
protocols, many of which are similar to the BMPs already noted. 
This MARSEC was developed by the Coast Guard in close 
consultation with interagency partners, including MARAD. At the 
request of Coast Guard, MARAD will participate in reviewing 
vessel security plans required by the MARSEC, as well as 
subsequent development of implementing guidance on the use of 
armed or unarmed security.
    Most recently, MARAD engaged the marine insurance industry 
to determine the effects of the piracy situation on insurance 
rates and the effects of insurance if vessels carry armed 
security personnel aboard their ships. The concerns of 
insurance companies have been made clear. The use of private 
armed security teams has not been fully addressed in terms of 
rules on the use of force, port state control on firearms, the 
certification of security personnel, and vessel and crew 
safety.
    All of these issues raise serious liability considerations 
from the standpoint of the marine insurance industry, and 
underwriters have shared their concerns on the absence of 
standards; the need to vet security firms; potential liability 
implications to the owner, insurer, and security firm; and the 
potential escalation of hostile actions that will increase the 
risk.
    Mr. Cummings. You are going to have to wrap up.
    Mr. Caponiti. Sir, we appreciate the opportunity to be 
here. We will do everything we can to assist the process. Thank 
you.
    Mr. Cummings. Thank you very much. I have been very 
generous and gave you two extra minutes.
    Mr. Frothingham, you say that you all are coming up with a 
comprehensive plan? Is that what you said? When do you 
anticipate that happening?
    Mr. Frothingham. I think it is an ongoing effort working 
with the interagency and the international community in many of 
the efforts that the Admiral was talking about. Our 
participation is there, along with the other departments and 
agencies. So I don't have a deadline right now, and it depends 
on the actions of a lot of other factors that we don't control.
    Mr. Cummings. Rear Admiral, are you working on that plan 
too?
    Admiral Salerno. Sir, with respect to engagement with the 
international community, yes, sir, we are. What we see as the 
next step is encouraging other flag states who operate merchant 
fleets to adopt the same best management practices so they will 
harden their ships as was described. A hardened ship is much 
less likely to be pirated. What we have done with our Maritime 
Security Directive in effect is a template that we will urge 
other flags to do for their fleet as well.
    Mr. Cummings. Let me go to Mr. Frothingham or Mr. Ikins. 
You stated in your written testimony that ``Somali pirates 
operate in a total sea space of more than a million square 
nautical miles, making it difficult for naval or law 
enforcement ships and other assets to reach the scene of a 
pirate attack quickly enough to make a difference.''
    You also noted that ``The relatively low incidence of 
pirate attacks has implications for how we allocate military 
assets'' and you noted that the DOD is fighting two major wars 
and is faced with many competing demands for its resources.
    Then you note that ``Many of the resources most in demand 
for counterpiracy activities, such as intelligence, 
surveillance and recognizance assets are the same assets that 
are urgently required elsewhere.''
    Wouldn't it be possible and relatively inexpensive to place 
four to five-person teams of embarked military personnel on a 
small number of U.S.-flagged vessels transiting the Horn of 
Africa region, most of which I note are carrying U.S. cargoes? 
Exactly which major missions being conducted by the U.S. Navy 
would be threatened by the assignment of, say, no more than 100 
Navy personnel to provide embarks to U.S.-flagged merchant 
vessels? In fact, wouldn't this approach be cheaper than 
maintaining many U.S. Navy vessels in the Horn of Africa 
region?
    Mr. Frothingham. That is a good question, sir. As a matter 
of fact, we are embarking security teams on U.S.-flagged 
vessels in that area.
    Mr. Cummings. And how is that determined? I mean, how do 
you determine how many and when?
    Mr. Frothingham. We have a practice of vessels owned by the 
Military Sealift Command that have crew members, five of the 
crew members are trained and armed, and then on vessels that 
the Military Sealift Command we also embark security teams 
numbering 12 or less that are trained and armed. Commercial 
vessels chartered only to carry DOD cargo, but on a charter 
that goes for six months or longer we train members of the 
crew, five members of the crew to be armed and provide security 
for that vessel.
    Vessels less than that we don't have that training embedded 
in the program, so if it is 180 days or less carrying DOD 
cargo, we don't train crew members to do that. That is based on 
allocation of resources and the risk and force protection 
involved with the interest in the cargo that we are shipping, 
particularly to places like Iraq and Afghanistan.
    Mr. Cummings. And how long has that been going on, that 
training process that you just talked about?
    Mr. Frothingham. For some time. I can get you the exact 
dates of that, if you want.
    Mr. Cummings. I am just trying to figure out is that 
something that has come about recently because of all the 
problems or whether it is something that has been happening 
over the years. I also want to know whether there has been any 
consideration to expanding that, because, again, we are looking 
for practical solutions and it sounds like that is something 
you are doing to a degree, and I am just wondering what your 
thinking is on that.
    Mr. Frothingham. Yes, sir. The Naval Expeditionary Command 
located in Virginia has anywhere from 144 to 70 personnel that 
are trained to provide these services. They are allocated 
against all the combatant commands, so they are in demand at 
PAYCOM and other places as well. We do that based on the 
resources and the threat that we are facing and the 
requirements that the combatant commands levee on the Navy. I 
can get you the details on that, sir.
    Mr. Cummings. I would appreciate that. What about non-
military sealift ships like the MAERSK ALABAMA? Why shouldn't 
they get embarks?
    Mr. Frothingham. Well, that gets to the question of the 
vessels that I was describing of the six month leases or 
longer, carrying exclusive DOD cargoes, they are given the 
status of sovereign vessels, and we do that as protection of 
the sovereign vessels. Vessels less than six months carrying 
DOD cargo and mixed cargo or non-duty cargo are not considered 
to be sovereign vessels, and we would ask them to rely on their 
own devices as we would a homeowner in a neighborhood counting 
on police support. It is kind of the allocation of risk.
    Mr. Cummings. Let me follow that up. Does the DOD believe 
that U.S.-flagged merchant ships are more secure if they are 
left to manage their security in pirate-infested waters on 
their own, rather than having embarked military personnel? If 
not, why shouldn't embarked military security teams be provided 
to them? Why should U.S.-flagged vessels and U.S. citizens be 
left to essentially defend themselves?
    Further, I couldn't help but note that you state that 
``This is a context in which our actions will be most effective 
when private partners take proactive measures themselves.'' So 
if a foreign threat was attacking Americans, say, in 
Washington, DC, would you recommend that the best response 
would be for those under attack to hire private security guards 
and strengthen the defenses around their homes? Why is the 
situation different when the attacks against Americans are 
occurring outside the United States?
    Mr. Frothingham. Well, another good question, sir.
    Mr. Cummings. Thank you.
    Mr. Frothingham. It depends on a couple of things. One of 
the things you characterized was a foreign attack on 
Washington, D.C. Of course we wouldn't rely on homeowners to 
defend against an attack from a foreign threat to the United 
States. However, we consider pirates criminals, and they are 
treated that way in the world.
    Therefore, we would take measures that would be anti-
criminal measures. We think that most of the attacks can be 
thwarted based on the measures that are being recommended by 
the Maritime Administration and being approved in the Coast 
Guard security plans. We think at this time that answers the 
mail. Of course we will defend U.S.-flagged vessels, just as we 
would the MAERSK ALABAMA, and we will continue to do so in the 
future. But we have to allocate the resources based on the 
threat that we are examining and the risks that are involved.
    Mr. Cummings. Let me just ask you, then I will turn it over 
to our Ranking Member, the members of the unions that represent 
our Nation's merchant mariners are concerned because it appears 
that the DOD is not taking the lead in protecting U.S.-flagged 
merchant vessels. Is it the case that protecting U.S. 
commercial shipping is no longer among the primary missions of 
the United States Navy? And, if so, when exactly did this 
change in mission priorities take place?
    Mr. Frothingham. I would have to go back and read the 
mission of the United States Navy to refresh my recollection, 
but I believe that defending U.S.-flagged vessels is a mission 
of the U.S. Navy. I don't think it has changed, but it is a 
mission set that has to be balanced against other requirements 
levied by the President of the United States and based on what 
Congress wants us to do. We will, of course, defend U.S.-
flagged vessels and will continue to do so, we consider that a 
very important duty, and that is where we are.
    Mr. Cummings. You know, I have often talked about how, in 
our Country, we believe that we are prepared for emergencies. 
Katrina showed us that we weren't, except for the Coast Guard. 
And I just wonder, if things got worse, will we be looking back 
saying that we wish we had done things right now to prepare.
    There is a book that I just read called Peaks and Valleys, 
and it says that when you are in your valley, you need to be 
preparing for your peak, and when you are in your peak you need 
to be preparing for your valley. I just worry that when it 
times come for the rubber to meet the road, we will discover 
there is no road.
    I have some more questions, but, Mr. LoBiondo, I yield.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    I am curious, any of our panel members, do you all believe 
that vessels and their crews have an unquestioned ability to 
defend themselves against a pirate attack? Does anybody believe 
they don't?
    Admiral Salerno. Sir, I will speak for the Coast Guard. We 
believe that the ships do have the inherent ability to self-
defense.
    Mr. LoBiondo. Okay. Anybody on the panel disagree with 
that?
    Mr. Frothingham. Can you explain what you mean by ability 
or right?
    Mr. LoBiondo. You are on a vessel, you are part of the 
crew, you are under attack by pirates. Can you defend yourself? 
Do you have the right and ability to defend yourself?
    Mr. Frothingham. I certainly agree you have the right. I 
can't tell you whether they have the ability to defend 
themselves, because it depends on the ship.
    Mr. LoBiondo. With that in mind, do you think crew members 
have indemnity under U.S. law for incidents that may occur on a 
vessel if they are responding to an attack?
    Mr. Caponiti. Sir, I can try that one. I believe they do 
have. That is a risk that the crew has, and I think it is one 
of the things that we need to be very careful about with our 
expectations of crews. I think the fundamental responsibility 
of a carrier to protect his vessels with lethal or non-lethal 
measures is a reasonable expectation.
    It raises a lot of issues, though, and what we in the 
Government need to do is, when we establish security directors, 
we need to address those variables as well as we can. I can 
assure you that there is a lot of work being done in the 
interagency on this. Coast Guard has the lead on the Maritime 
Security Directives, I don't want to speak for them, but they 
have pulled in Maritime Administration and other agencies to 
try to address the serious issues that are raised in this 
environment that we are talking about.
    So we don't pretend that it is easy. We think that most 
ships that are in those waters that are U.S.-flagged ships are 
not high-risk ships. I shouldn't say most. Many are not high-
risk ships, they are high and fast. The ones that are highly 
vulnerable, though, we need to take extreme measures with every 
kind of lethal and non-lethal measure available to us.
    Mr. LoBiondo. What is your feeling about indemnity with 
international law for U.S.-flagged vessels?
    Mr. Caponiti. I believe I can competently answer this. I 
think there is a personal indemnity risk that seamen and 
crewmen have if they do something irresponsible while trying to 
defend themselves. I think that is a grey area that is in the 
eyes of the beholder.
    So, certainly, this whole situation puts crews in jeopardy. 
We have had a couple of instances where military forces--I 
believe military forces--have fired on fishermen, thinking they 
were pirates, and it raises a lot of legal issues. Certainly, 
if a soldier does that, it is different than if a mariner does 
that. A mariner I think is personally liable and a whole host 
of legal issues come cascading down on that.
    Mr. LoBiondo. There is a lot of discussion from the 
industry and from all interested parties on what is the best 
way to protect and to defend ourselves, and the Chairman 
indicated his belief that the United States Navy should 
actually just play part of the role. We haven't had much 
discussion, though, about if the Navy or the Coast Guard is 
unable or unwilling to play that role, what is the thought 
about a team of private contractors that are former military, 
that have military training, but are not U.S. military, that 
are hired by the owners or the vessels themselves that are 
U.S.-flagged? Admiral?
    Admiral Salerno. Sir, there are a number of companies that 
are already doing that, hiring private security to protect 
their ships and their crews, so we know it can be done. One of 
the reasons we included that option in our Maritime Security 
Directive is because it has proven to be a very effective 
deterrent to pirate attacks.
    In a recent briefing by Admiral Gortney from Central 
Command, NAVCENT--he is a naval component commander--he 
indicated that of 12 cases of pirate attacks on merchant ships 
that have had embarked security teams, they have all been 
successfully repelled.
    So, in many cases, just the mere demonstration that the 
ship is protected is sufficient to dissuade a pirate from 
continuing the attack, so they are very effective.
    Mr. LoBiondo. So that might be something that will be 
looked at as a possible recommendation as folks unfold on 
developing a strategy?
    Admiral Salerno. Yes, sir. That is, in fact, included as an 
option within the Maritime Security Directive, armed or unarmed 
teams.
    Mr. LoBiondo. Well, I know it is a complicated issue and my 
time has expired, but just a quick observation that we are 
taking our time, as we should, and there are a variety of 
different legal and all kinds of issues involved with this. But 
I venture to say that if there were an incident tomorrow on a 
U.S.-flagged vessel where U.S. citizens were harmed or killed, 
we would have a whole different attitude about the urgency with 
which we are dealing with this and the measures with which we 
would be willing to go to.
    Thank you, Mr. Chairman.
    Mr. Cummings. You know, Mr. LoBiondo, I agree with you a 
million percent, and I think that that is why we want this 
thing done right, but we want to get it done.
    I think what happens too often is people--and I am not 
talking about you all, just talking about in general--people 
look at a problem and they say it is hard, we are going to deal 
with it, we are going to deal with it, we are going to deal 
with it, and the next thing you know, five years go by, ten 
years go by, but, in the meantime, a lot of damage is done.
    That is why this Committee has consistently set timetables, 
because we realize that unless you measure something, unless 
you set some timetables, nothing may happen. That is a problem, 
and we simply cannot afford for nothing to happen. So that is 
why I asked you, Mr. Frothingham, exactly what your timetable 
was with regard to this. I promise you, this is our watch, and 
we are going to bang this issue until we get a resolution, 
because I just think it is just that important.
    Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman. I very much appreciate 
your having this hearing today.
    I want to compliment, even though he is on the second 
panel, Mr. Volkle for his statement. I think a lot of people 
have outlined a problem and the only real solutions to us were 
in his statement. So I want not direct this to the gentleman 
from MARAD.
    Mr. Volkle points out that in order for an American-flagged 
vessel to carry weapons, that 22 CFR would have to be amended. 
So, first, let me get a clarification. When he talks about 22 
CFR permits an individual seaman to bring up to three 
semiautomatic weapons. Is that per vessel or per seaman, sir?
    Mr. Caponiti. Sir, I am not certain of the provision. I 
would imagine that that is per seaman.
    Mr. Taylor. Could you get a clarification for the 
Committee?
    Mr. Caponiti. I could get a clarification for you, sir.
    Mr. Taylor. Second thing, he talks about the temporary 
export license and then I am going on to his statement: ``It is 
virtually impossible because the State Department requires 
explicit consent from every country to which a vessel will call 
prior to issuing a permit. We have attempted to obtain such 
consent from some of the countries where we call, to no 
avail.''
    Mr. Caponiti, I would think that is your job. Maybe a year 
ago it might not have been your job, but if we are a Maritime 
Administration that is in the business of promoting maritime 
commerce for our Nation, I would think one of the resources 
that you can provide them is to say if you are going to be 
delivering something to Somalia, if you are going to be 
delivering something to Djibouti, if you are going to be 
delivering something to the United Arab Emirates, these are the 
rules; we have made the calls ahead of time and this is what 
you should anticipate.
    The second thing is, since it is a very real problem, going 
back to what Mr. LoBiondo said, the MAERSK ALABAMA should never 
have been hijacked; it was fairly fast and had high sides. So, 
according to your rules, they have already broken that rule. 
And there are a lot of tankers that are a lot slower and a lot 
lower, and they are vulnerable.
    So, again, Mr. Chairman, I think we really have two 
options, and I very much appreciate your willingness to do 
something. Number one, in the short term, we have to decide 
whether or not we, as a Nation, are going to put our folks on 
board. And there are a lot of ways to do that, Coast Guard port 
security teams, individual augmentees from the Navy Reserve, 
from the Coast Guard Reserve, from the Marine Corps Reserve. I 
guarantee if the call went out to man vessels on a temporary 
basis until we came up with a national program, you would have 
hundreds of volunteers to do just that.
    Secondly, on the long term, I agree that it probably ought 
to be done by the private sector, because we are involved in 
two simultaneous wars and we need to come up with a set of 
rules. But the Maritime Administration needs to be going to 22 
CFR, getting a clarification for these companies, what they can 
carry, have an agreement with the nations that we are going to 
be calling on as far as the exchange of weapons, if we have to 
lock up weapons while we are in port, if we have to lock up 
weapons while we are in port domestically. There has to be some 
clear-cut rules, and you would think our Nation would be taking 
the lead and letting people know what they need to do, and we 
are not doing that.
    Again, both of you are exactly right, we tried to do it on 
the cheap and lost 20 sailors in the Port of Aden because we 
didn't have waterside security on the Kohl, and almost lost a 
billion and a half dollar warship, in addition to those 20 
sailors. We tried to do air time security on the cheap and it 
resulted in two planes flying into the Twin Towers and a third 
ending up in a field in Pennsylvania that probably would have 
hit the building across the street, and another plane that hit 
the Pentagon.
    We are trying to do this on the cheap, and every one of 
those vessels, you had it exactly right in your statement, they 
are either carrying American military cargo or American aid 
cargo. It is our stuff, and we have to defend our stuff because 
it has got our flag on the back, our crews on board, and it 
ought to be something that, when people say, well, why should I 
have an American-flagged vessel, it is because we are going to 
defend our stuff. That is the difference between having an 
American flag or a flag of convenience.
    I appreciate your having this hearing. We ought to take the 
lead, and if we don't do it through this Committee, then we 
need to do it through the Armed Services Committee.
    Mr. Cummings. Would the gentleman yield?
    Mr. Taylor. Absolutely, Mr. Chairman.
    Mr. Cummings. I was just sitting here and I was just 
thinking about being effective and efficient, and one of the 
things I am hoping that we are can do, that both sides can do, 
is come together with our recommendations with regard to what 
needs to be done and present them to Defense and to the Coast 
Guard so that we let it be known the things that we think ought 
to happen.
    Now, they are trying to come up with a comprehensive plan. 
I just think that we need to, coming out of this Committee, at 
least make our recommendations to them. There are things that 
we are going to have to do, I am sure, as a legislative body, 
but I think that this matter is of such urgency, that we need 
to do that and we need to do it soon. And the things that you 
just recommended, and some other things that I have been 
thinking about, such as training, extending this training, we 
will get to that, but I just think that we have got to put it 
on the record how we feel about this and we need to do it 
immediately.
    Mr. Taylor. Mr. Chairman, jurisdictionally, because MARAD 
is under the sea power Subcommittee and this Committee, Food 
for Peace program goes through the Foreign Ops Committee, the 
appropriators, etcetera. We are probably going to have to 
prepare a floor amendment so that everyone can vote on it at 
once, rather than going through multiple Committees and 
dragging it out forever.
    But I very much appreciate your willingness to address 
this, and, at the very least, we ought to be dictating that a 
part of the cost of getting that contract, whether it is to 
deliver military aid or Food for Peace program, that you are 
going to have to have an armed crew on board, and we recognize 
that there is a cost associated with that. We set up the rules 
as to what the minimum crewing ought to be. We don't need to 
come up with a lot of rules of engagement, we need the people 
on the scene at that time making the rules of engagement. I 
just think that would make more sense. Thank you very much for 
addressing it.
    Mr. Cummings. Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman. This is a vital hearing 
and very important matter. I have a judiciary hearing I am 
going to have to attend, so I will be going back and forth.
    Admiral, it may be repetitious because these questions 
overlap, but let's assume we have a U.S. flag carrying U.S. 
Government cargoes on high-risk transit through pirate-infested 
waters. Let me put a two-part question to you. Given that fact 
situation, does the Coast Guard have the authority to deploy 
maritime security and safety teams to deter piracy outside the 
U.S., A? And, B, what capabilities would these teams provide in 
addition to the law enforcement detachments already in place?
    Admiral Salerno. Sir, whenever the Coast Guard deploys in a 
Title X capacity, we do so at the request of a geographic 
combatant commander. So, in this case, it would be Central 
Command or NAVCENT. So we don't self-deploy, it is always in 
response to a request for forces from the geographic commander. 
The forces we have in theater right now are there on that 
basis.
    Does the Coast Guard have the competency to engage in this 
kind of mission? Yes, but, as you well know, sir, very much 
constrained by capacity. So should a request come in from the 
combatant commander, we would do everything we can within our 
capacity limits to provide the requested resources, but then 
they would essentially work for the combatant commander and 
take their tasking from the combatant commander.
    Mr. Coble. And I think this question has been put to the 
entire panel, but let me revisit it. I think it is a grey area. 
The question is do crew members have indemnity under U.S. laws 
for incidents that may occur during a vessel's response to an 
attack internationally or domestically? Anybody? As I say, I 
think it is a grey area, but anybody want to weigh in on it?
    Mr. Caponiti. Sir, I will attempt to. I believe the crew is 
liable for actions taken to defend himself to the extent that 
they are rendered to be unreasonable. And, you know, 
unreasonable is a term that is grey. I think they have a right 
to defend themselves, clearly, but if they do the wrong thing 
under the wrong circumstances, they are going to have legal 
issues that they are going to have to contend with.
    Mr. Coble. Some risks assumed, then.
    Mr. Caponiti. Some risk, yes, sir.
    Mr. Coble. Thank you, gentlemen, for being with us.
    Thank you, Mr. Chairman.
    Mr. Cummings. Thank you very much.
    Mr. Baird.
    Mr. Baird. I thank the gentleman.
    Do we have an estimate of the cost of the operations that 
ensued following the MAERSK ALABAMA takeover?
    Mr. Frothingham. If you are talking about naval vessels, it 
averages about $107,000 a day.
    Mr. Baird. And how many vessels were involved?
    Mr. Ikins. Depending on the time, sir, two to three.
    Mr. Baird. Okay. And how about aircraft?
    Mr. Ikins. I would say we had at least a couple aircraft 
involved.
    Mr. Baird. I understand some of this would be classified.
    The reason I asked the question is I have been briefed on 
this issue, both overseas and domestically. It is my 
understanding that basically what has happened is that the 
shipping industry has made a cost benefit analysis and they 
have said, well, the cost of putting up a crew on a ship and 
arming them, et cetera, et cetera, is just high enough that 
they figured out the probability of getting a ship taken over 
and paying the ransom. They are willing to pay the ransom, 
which is kind of reinforcing bad behavior, it strikes me.
    But on top of that, they are socializing the cost. In other 
words, they decide, well, we will pay the ransom, but if it is 
a U.S. ship, U.S. crew, we are going to feel obliged to rescue 
those guys, and I am glad we did, and credit our SEALs and all 
the other folks for doing it, but at a huge cost to our 
taxpayers.
    I am just wondering if it is not time to change that cost 
benefit ratio in some fashion, meaning you don't just get to 
say Uncle Sam and the SEALs and the Navy and the Marines and 
Air Force, and whoever else plays along, is going to rescue 
you; you have got to put up the scratch and roll it into the 
cost of your products.
    To me, that has got to happen, Mr. Chairman. And I would 
welcome the gentlemen's costs on that. I just doesn't seem that 
the cost benefit ratio, as it currently works, works out fine 
for those guys, except if we lose a valuable life or we lost 
precious cargo. But talk to us a little bit about that cost 
benefit ratio, if you would.
    Mr. Frothingham. It is a little out of my line, sir, but I 
think you are right. I think it is where you allocate the 
costs. The consumers of the goods will have to pay the extra 
cost if the industry pays the cost of protection, which is 
maybe a good place for it to be. If we don't do it that way, 
then the taxpayers pay the costs, whether they consume them or 
not.
    Mr. Baird. Admiral?
    Admiral Salerno. I can't comment on the cost benefit 
analysis by industry; perhaps that is best left to the second 
panel. But I can tell you that collectively within the 
interagency and also within our Government and industry 
dialogue there is, I think, unanimity of opinion that we don't 
want to have another U.S. ship boarded by pirates. So our 
collective goal is to not get into that situation overall.
    Mr. Baird. There is another aspect of the cost benefit 
ratio, as I understand it, and that is that just given the size 
of the area and the mobility of the pirates and the uncertainty 
of the attacks, it is virtually impossible to patrol it. You 
know, we have token ships out there and they can respond within 
a certain amount, but it is not hard to see where our token 
ships are, and you just go somewhere else.
    So not only is it costly, it is also ineffective and 
inefficient. I just don't see another way, other than arming 
the ships at sea and having the owners pay for it, that you are 
really going to achieve the desired result.
    Mr. Caponiti. Sir, can I just add something?
    Mr. Baird. Please.
    Mr. Caponiti. With respect to the cost benefit analysis, we 
have commented that most of the ships in those waters, most 
U.S.-flagged ships in those waters are carrying some kind of 
Government cargo, DOD or food aid.
    In both respects, the Government will include in the 
payment, the Government payment for services will include the 
cost that the carrier are bearing to harden themselves in those 
waters. The TRANSCOM commander has made that clear and MARAD 
has the responsibility to oversee the fair and reasonable rate 
process for food aid under USAID, and we are putting those 
costs into the calculations. We need the cooperation of 
carriers to know what those costs are, obviously, but we will 
put those into the fair and reasonable rate calculations so 
that they do not, by themselves, bear the cost.
    Mr. Baird. Do you mandate that they be armed, if you are 
going to roll that into the cost?
    Mr. Caponiti. We are not mandating that anybody is being 
armed. Under the MARSEC Directives, we don't mandate anything--
and I will let Admiral Salerno say this, but there may be some 
high-risk vessels that are highly vulnerable may only be able 
to obtain a maritime security approval if they arm themselves. 
I mean, we are talking about low and slow in those waters under 
circumstances----
    Mr. Baird. I will echo Mr. Taylor's comment and just one 
last comment, then I will close out. Some years ago, not that 
long ago, I met with some MARAD cadets or some cadets of the 
Merchant Marine Academy who had been on MARAD vessels, I 
understand it, and it was protected by Gurkhas armed with 
knives, truly, and they were hauling a pretty valuable cargo. 
And as tough as a Gurkha is, I think it is crazy if that was 
the security at the time. My belief is that there ought to be a 
bright line that says you attack an American ship or an 
American crew, you have got a high probability of getting 
killed.
    Mr. Chairman, I think we ought to settle in this Committee 
for nothing less than this, that every pirate anywhere on earth 
knows if it is an American ship and it is an American crew, and 
you try to take it down, the guys on board are going to do 
everything they can to kill you and they will be armed and 
capable of doing so. Thank you, Mr. Chairman.
    Mr. Cummings. Mr. Olson.
    Mr. Olson. Thank you very much, Mr. Chairman.
    My first question is just for the panel in general. We have 
been focusing, clearly, on the situation in the Gulf of Aden 
and off the coast of Somalia, but do you see the risk of piracy 
expanding to other places in the world? For example, when I was 
in the Navy back in the early 1990s, the Straits of Malacca 
near Indonesia were considered to be the high piracy areas. Any 
other areas that are developing to be a problem?
    Admiral Salerno. Yes, sir. In fact, in our Maritime 
Security Directive, it identifies a number of areas around the 
world where ships are potentially at risk, we just term them 
high-risk areas. The Straits of Malacca is a good example. That 
was a piracy hotspot for quite a while; it is still an area of 
concern.
    One of the main differences is there are coastal nations 
there that have applied resources to tamp down that problem. 
That doesn't necessarily exist in the Horn of Africa. Another 
region of the world is off the coast of Nigeria, where we have 
a number of U.S.-flagged offshore supply vessels operating 
there in the oil and gas industry, which are often subject to 
essentially armed robbery. It is a different modus operandi; 
they don't seize the vessels and hold them ransom, but they go 
on board the vessels and rob them at gunpoint for valuables.
    So the short answer, sir, yes, there are other areas of the 
world where we are concerned.
    Mr. Olson. One more question. Regarding the Somali pirates 
again and their sophistication, do they seem to be still just a 
group of independent operators or are we seeing some sort of 
coordination amongst different pirates when they are out there 
on the water and coordinating their attacks against merchant 
vessels in the area?
    Mr. Ikins. Sir, some aspects of that will be classified, 
but they appear to be, in some cases, independent operators. 
There are various clans that are involved in this in northern 
Somalia, north of Mogadishu; they are operating out of 
Somaliland and Puntland primarily. They do talk to each other.
    I think that they do sometimes provide each other 
assistance, but in many cases their independent operators are 
sort of entrepreneurial, and in some cases this is almost a 
business proposition; someone puts up the money, recruits the 
people to do it, a decision is made about who will get what 
percentage, and then they essentially lie in wait and look for 
an opportunity. It is essentially opportunistic criminality; it 
is not organized crime, per se, but there is a low level degree 
of organization.
    And if I could continue, sir, in regard to your previous 
question, the point that the Admiral makes about we hear the 
Gulf of Aden compared to the Straits of Malacca frequently, and 
the differentiation he made is key, in that you had a group of 
countries who are relatively developed and who have 
capabilities, and who agreed to work together. We don't have 
that in the Gulf of Aden.
    Now, Yemen has a coast guard. I can't speak to their 
mission, but I know that they are involved in counterterrorism 
missions. Somalia does not, as I said in my statement, it 
doesn't really have a functioning government. Somaliland and 
Puntland do have somewhat functioning governments, and, in 
fact, there is a Puntland coast guard which does function, but 
it is very poorly equipped, very small numbers. Eventually, 
what we would like to do is get to the point where we could 
build up those kinds of capabilities around that area so that 
they would have their own ability to address this issue.
    Mr. Olson. Yes, sir, the straits, compared to, you said, 
four times the size of Texas is the area you are dealing with 
off the coast of Somalia. The straits are pretty narrow, some 
of those choke points, and you can get them coming through.
    One last question for you, Admiral. Under the Coast Guard's 
new Security Directive, vessels operating the Horn of Africa 
region must resubmit their vessel security plans with 
additional security protocols regarding terrorism, piracy, and 
armed robbery by next Monday. I just wanted to get an update on 
that.
    How many plans do you anticipate receiving? Will vessels be 
placed under operational restrictions prior to approval of any 
amended plans? And will they be required to meet a standard 
checklist of security measures with certain requirements? Will 
that apply only to certain classes of vessels?
    Admiral Salerno. Yes, sir. There was a very short time 
frame, 15 day time frame for people to acknowledge that they 
had received the Maritime Security Directive and then to 
implement a lot of the measures that are contained within that 
Directive in that short time frame. We acknowledge it will take 
longer for the companies to actually submit their revised 
plans, and in some cases the measures may take longer to 
implement. So we are working with the companies on an 
individual basis. We don't expect everything to be done by next 
Monday.
    Mr. Olson. Thank you very much. I am over my time and I 
yield back.
    Mr. Cummings. Thank you very much.
    Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman.
    Rear Admiral, did I understand, did you give our Chairman a 
commitment of when this plan was going to be ready?
    Admiral Salerno. Are you referring to the international 
engagement plan, ma'am?
    Ms. Richardson. What our plan is going to be to respond to 
this issue. I remember hearing you and Mr. Frothingham say that 
you were working on coming up with something. Did either of you 
guys give the Chairman a specific date of when we could expect 
that? I remember hearing him asking for it, but I don't ever 
remember hearing you respond.
    Mr. Frothingham. You are correct. We said that we have no 
time certain that we are doing it. It is a complicated process, 
involves a lot of actors that we don't control, so I haven't 
got a time for you.
    Ms. Richardson. Can you give us an estimated time that we 
could expect it?
    Mr. Frothingham. No, ma'am, not at this time.
    Ms. Richardson. Okay.
    Mr. Chairman, I would just say that, in my opinion, that is 
unacceptable, to come before this Committee to give us 
testimony and not be prepared to tell us when we could expect 
to get further information.
    It may be complicated, but what happened on the seas that 
all of the American people and across the world witnessed was 
also complicated, and for you to come to this Committee with no 
timetable, in my opinion, is unacceptable, and I would 
recommend that we send a letter to the appropriate armed 
services requesting that they give us a specific timetable. We 
are not telling you it has to be in two weeks, one month, 
whatever it is, but the fact that you can't give us a timetable 
is of great concern to me.
    Mr. Cummings. Would the gentlelady yield?
    Ms. Richardson. Sure.
    Mr. Cummings. What you all are hearing from Ms. Richardson 
is the way we operate in this Committee, because we adopted, 
even before the President said it, the urgency of now. That is 
what this is all about. We have learned, as legislators, that--
and some of you have never been before this Subcommittee, so 
let me tell you what this is about, and I will give you back 
your time, Ms. Richardson.
    What we found that people come before our Committees, they 
tell us what they are going to do and then they wait us out. I 
am talking about not just this Committee, but other Committees. 
And then they wait long enough, until a new Congress comes in, 
sometimes, a whole new group of people, a whole new Chairman, 
everything is new, and then it starts all over again. And you 
find that you are going on this merry-go-round, never getting 
anywhere fast.
    So what I would suggest is that you all adopt the 
Commander-in-Chief's very words, the urgency of now. That is 
where we are getting to. We are trying to get this done because 
we realize we have a limited amount of time to act, period. And 
I say it over and over again, this is our watch. This is our 
watch. And if we fail to act, then I am convinced that lives 
will be lost, people will be harmed because we failed to act.
    So, with that, I will yield back to the gentlelady.
    Ms. Richardson. Thank you, Mr. Chairman.
    To further build upon what the Chairman--did you want to 
respond with a timetable?
    Admiral Salerno. Yes, ma'am. Let me offer a few comments 
for clarification.
    There is an anti-piracy plan; that has already been 
developed and promulgated by the National Security Council. 
Perhaps I misunderstood your question. What we don't 
necessarily control is the international aspects of how the 
plan is being carried out. The plan is under NSC control. We 
can certainly provide that for you.
    There are four working groups organized under that plan, 
one of which we referred to earlier, which is the industry 
self-protection measures, co-led by the Coast Guard and MARAD. 
But, internationally, it is viewed as a U.S. lead. There are 
the three other working groups, one----
    Ms. Richardson. Excuse me, sir. With all due respect, I 
have only got three minutes to talk, and I get it.
    Admiral Salerno. Okay.
    Ms. Richardson. What I am saying to you is we need for you 
to get it. What our Chairman just said is this is on our watch. 
If you haven't watched newspapers lately, I am not going down 
for you. I am not going down for you not addressing the 
concerns that are going to be said, because what is going to 
happen is, if this happens against next week, they are going to 
come to our Committee, the American people, and say why didn't 
you take action.
    And what I am saying to you, I am not carrying that boat 
for you. It is your responsibility. You say you have this basic 
plan, but what we said in this Committee is your plan isn't 
working. You don't currently have a plan in place to determine 
if in fact, okay, we have got these contractors, whoever, 
security that are on these ships, and they shoot and they kill 
somebody. What is going to happen then?
    So your plan has to go further than what you have, because 
you have not given authority to these various security people 
that, God forbid, you go in and you make a mistake and you 
shoot someone that you should not shoot, then what happens?
    I am kind of familiar with Whitewater, Blackwater, and so 
on. You tell me what is the perception across the Country with 
Blackwater and what happened in Iraq. I don't think it is 
positive. And we had to work to establish some standards that 
we, as American people, can believe and say, yes, we might have 
contractors. But if we are going to have people out there doing 
these things, they have to follow certain regulations.
    From what I have heard in this Committee, you have not 
established what those regulations are. And because you 
haven't, that makes us liable. And, for me, what I am saying is 
that is unacceptable and I am not willing to carry that for 
you. What I am willing to do is to ensure that we fix it.
    So, with all due respect, you have a preliminary plan, but 
it needs to be adjusted. So what we are asking is when do you 
think, with these international groups and whoever you have to 
work with, when do you think you can make those adjustments? My 
expectation would be if you can't tell us now, you would come 
back in writing to this Committee and say this is the time 
frame that we think we can adjust.
    And oh, by the way, I would suggest you have a Plan B, 
because judging from an article that I saw, that was Tuesday, 
May 19th, the organization that is supposed to work to do some 
of this has backpedaled on what they feel they need to do. So 
we, as Americans are going to have to decide if the 
international community doesn't figure it out, what are we 
going to do. We still have that responsibility, and my question 
is when are you going to come up with that plan.
    Finally, I would say I think it is wrong to suggest that 
there would be private companies, private individuals to do 
this work and, in the words that you said, sir, it is a grey 
area and it is in the eyes of the beholder. What happens to 
that individual who shoots somebody and, unfortunately, kills 
somebody, they are either going to be hung up and dragged on 
the back of some ship, or other people, another ship, is going 
to be hijacked, and I don't think that should be a grey area in 
the eyes of the beholder.
    It should be clearly identified what is the process, what 
is the engagement process, what are you authorized to do, 
because, otherwise, we are all on the hook for this; and, as I 
have said, I am not willing to be on the hook for it. So we 
need to come up with a plan and work that plan, and I think we 
are completely within our jurisdiction to ask you to give us a 
plan.
    You wanted to say something.
    Mr. Caponiti. Yes. With respect to the armed security 
teams, I believe the expectation is that armed security teams 
would come in with their own liability insurance. That is 
probably something that they would carry.
    Ms. Richardson. Okay, let me--and I am going to yield back 
because now my time has expired.
    Sir, they can have all the liability insurance that they 
want. This is the United States of America. If someone on the 
back of a ship shoots and kills someone who shouldn't have been 
responded to in that way, that is bad for all of us. If you 
haven't learned that in the last eight years, we have not made 
progress. It is our responsibility to do what is right, and 
that means, if they have a contract and they are on an American 
ship, we are liable for what will be perceived of how we 
respond. It is a bigger responsibility that we have, and what I 
am pushing back to you is to say we need to meet that test, and 
I don't think that we are doing it.
    Thank you.
    Mr. Cummings. Thank you very much.
    Mr. Frothingham and Mr. Ikins, I am just curious. We had a 
tough time getting Defense to come to this hearing, and I am 
sitting here and I am just wondering is this something you guys 
just don't like? I mean, is it such a messy issue that you just 
don't want to--and I am not trying to be funny. I am very 
serious.
    When I have an organization--and I am not knocking you; I 
need to understand this--whose job it is to defend this 
Country, and when we have a situation, like this piracy 
problem, and then I ask the very organization that is supposed 
to defend the Country to come in and talk about what their 
position is, and then for us to have difficulty getting you to 
come here, I wonder what that means. And I must tell you it 
pains me tremendously.
    Then I listen to the testimony, and I wasn't going to say 
anything, but the more I have listened to it, it seems as if--I 
am just wondering is there a--am I missing something, that we 
are paying our Defense Department to defend us, but then when I 
call the Defense Department in to tell us what they are doing 
to defend us, the Defense Department doesn't want to come in? 
Help me with that. I mean, just be candid with us. Is there an 
issue? Are we missing something?
    Mr. Frothingham. With all candor, sir, I am not aware of 
any reluctance to come testify.
    Mr. Cummings. There was phenomenal reluctance. Phenomenal. 
And that is why I am saying this. I would not say this if it 
did not pain me. It is literally painful because it makes me 
wonder what this is all about. And all I am saying to you is 
that--and I think you are probably feeling a lot of frustration 
on both sides here, because we want to see something happen, 
and then Defense comes up and Defense says, well, we are 
working on it. Coast Guard says we put out some directives 
basically saying do the best you can.
    So I am trying to figure out--then we ask for a plan. Well, 
we don't know, we'll see what we can do. I mean, this is the 
United States of America. And I am sitting here, I am trying to 
figure out, you know, sometimes I feel like I am missing 
something.
    So you all do want to come up with a plan, a comprehensive 
plan. You don't know when you are going to come up with the 
plan. Do you have any idea, Mr. Ikins? Any idea. Just give me a 
ballpark figure.
    Mr. Ikins. Well, Mr. Chairman, if I can go back to what 
Admiral Salerno was saying, there is an interagency approved 
plan for counterpiracy action. It is approved by the NSC and 
the interagency; it is dated as of December 2008. It is posted 
on the MARAD Web site. It is available. It has three identified 
lines of action in it. If you wish, I can delineate.
    Mr. Cummings. Should it be updated in light of changed 
circumstances?
    Mr. Ikins. Possibly so. It was intended to be a living 
document.
    Mr. Cummings. And how live is it? When was it last updated, 
do you know?
    Mr. Ikins. Well, it just came out in December 2008, sir.
    Mr. Cummings. Okay. Have you looked at it recently?
    Mr. Ikins. I have a copy of it in this book, sir.
    Mr. Cummings. So will you take a look at it and tell us 
whether you think it ought to be updated?
    Mr. Ikins. Yes, sir. I think it is a good plan. This has 
been the subject of a great deal of discussion among the 
interagency and the interagency if responding to this 
effectively. I have spent a lot of my time and so have a lot of 
other people here, particularly in regard to Captain Phillips, 
in regard to earlier the comment about where are we, where is 
the Navy.
    I will just say this. We will always respond to U.S. ships 
in extremes where and when we can, but there is a matter of 
physics involved, and I won't cite the statistic again of the 
space out there, but in both cases that have been mentioned, 
the MAERSK ALABAMA and the LIBERTY SUN, in both cases the USS 
BAINBRIDGE was able to respond within a reasonable amount of 
time and was able to respond effectively, as we saw.
    So there is a plan; it is being executed. These 
international groups that the Admiral referred to are part of 
that plan. The United States is leading on that and, in fact, 
the reason that there are international forces out in the Gulf 
of Aden right now, the EU, with Operation Atlanta, the creation 
of Combined Task Force 151 by NAVCENT, other nations which are 
not part of those coalitions or the Coalition Maritime Force, 
as well, and other nations such as Russia and China and India, 
which, although they are not part of those coalitions, still 
operate and coordinate with each other. And, in fact, the 
operational coordination is going quite well.
    So that was part of that plan, and we have marched through 
some of those things and I think it probably could be looked 
at. I will leave that to my superiors to take a look at that, 
but the interagency has been engaged on this. I can testify to 
that.
    Mr. Cummings. Do you think it is better to respond than to 
prevent?
    Mr. Ikins. I think it is always cheaper to prevent, sir.
    Mr. Cummings. And isn't it difficult to respond if the 
Navy--I don't have anything else.
    Rear Admiral, just one question. Is the Coast Guard capable 
of providing law enforcement detachment teams to be embarked on 
U.S.-flagged vessels transiting the Horn of Africa?
    Admiral Salerno. Sir, I am going to go back to my earlier 
comment. If we are requested by the combatant commander, we 
will do everything we can to provide the requested resources, 
but we do not self-deploy. So it is always under the auspices 
and at the direction of the combatant commander.
    Mr. Cummings. Any other questions? I had a number of 
questions, but I will submit them in writing. Any other 
questions?
    Mr. Taylor. Mr. Chairman, if you don't mind.
    Mr. Cummings. Mr. Taylor.
    Mr. Taylor. I thank the Chairman very much.
    Mr. Caponiti, sir, we have a lot Italian-Americans down my 
way, but not that name, so please forgive me.
    [Laughter.]
    Mr. Taylor. Again, we are under a lot of pressure to 
balance the budget.
    One of the things that comes up in my town meetings is what 
does MARAD do? And I say, well, they run the Merchant Marine 
Academy. Other than that, I am not so sure. I really think that 
this is a time where you can prove to the American public the 
value of MARAD. I think it ought to be your organization that 
is looking around the world at where these ships are going, 
reaching agreements with those countries, coming up with a plan 
of what weapons can be carried on board in the short-term.
    We know that we are hiring Blackwater type crews for 
vessels carrying military cargo in that part of the world, so 
we have a pretty good idea what that costs per ship to make 
that transit. It ought to be our policy and it ought to be your 
policy, since you are the Maritime Administrator, that says we 
are going to have that on every American-flagged vessel 
carrying an American cargo. It means, yes, we are going to buy 
a little bit less of something making that transit; it also 
means we are not going to have a national embarrassment or the 
national shame of losing a vessel or losing American mariners.
    You need to be coming to this Congress immediately. We can 
fix it, but, quite frankly, we have got a lot of other 
challenges, and we may not do it as well as you do. And I want 
to see to it that it is done right the first time, for a lot of 
reasons.
    So I would hope that you would make some suggestions to 
this Committee, because otherwise this Committee is going to be 
sending some mandates to you, and I think we ought to be doing 
this in a cooperative manner, given the expertise of your 
association, given the expertise of the people that you have 
access to on a daily basis.
    And going back to some of the points that were raised about 
22 CFR and any other challenges we have, and we have a very 
short period of time. The Defense authorization bill is going 
to be in Committee on the 17th of June; it will be on the House 
Floor before the 4th of July. That is one of the mechanisms to 
address this, and we are going to need your suggestions before 
then.
    Admiral Salerno. Sir, with your permission.
    Mr. Taylor. Yes, Admiral.
    Admiral Salerno. Maybe I can provide some insights and aid 
my colleague, Mr. Caponiti, another Italian-American. Sir, you 
raise some good points about 22 CFR, and I wanted to assure you 
that there is a lot of ongoing dialog with that. Those 
regulations, the ITAR regulations, the International 
Trafficking and Arms Regulations, are managed by the Department 
of State.
    We are in direct contact with the Department of State on 
those regulations and on the arms export permissions and the 
individual capacity by which mariners can bring weapons on 
board a ship. It is cumbersome right now, but State is aware of 
the issue and is looking at providing interpretations that 
would ease the ability for ships to bring embarked security 
teams on board with their weapons, privately provided teams.
    Also, you raised the question about port entry by U.S.-
flagged vessels into foreign ports. That is an ongoing concern. 
In fact, one of the reasons the Maritime Security Directive did 
not mandate armed teams is the recognition that some countries 
will not permit that.
    Mr. Taylor. Admiral, if I may. And I am sorry to trouble 
your line of thought, but this is a gift of the American people 
to those countries. It is more than fair for us to say these 
are the strings attached to that gift. We are not going to put 
out fellow Americans or that vessel at risk to deliver this 
gift of food or whatever it is. In the case of military cargo, 
then we are there for a purpose, a different purpose.
    Admiral Salerno. Yes, sir.
    Mr. Taylor. And, again, if you are going to allow us to use 
your port, if we are going to pay to use your port to unload 
this military cargo, again, these are the strings attached. We 
are going to protect our people; we are going to protect our 
vessel. That is a reasonable cost of doing business.
    Admiral Salerno. I think we are in violent agreement, sir.
    Mr. Taylor. Okay. Then I hope we will both have a violent 
sense of urgency on this.
    Admiral Salerno. Yes, sir.
    Mr. Taylor. I had a briefing in Bahrain in December, and to 
more or less quote the Navy admiral, when they see an American 
flag, they back off. Well, that is no longer the case, is it? 
So now that we know they have attacked American vessels, then 
we have to respond in a much more aggressive manner.
    Admiral Salerno. One other point?
    Mr. Taylor. Yes, sir.
    Admiral Salerno. Just for your awareness, Department of 
State has issued a demarche to other countries to actually 
determine what restrictions they would have on the entry of 
armed teams into their ports, and as that information comes in 
we will provide that, certainly, to the industry and we would 
be happy to provide that to you.
    Mr. Taylor. Thank you, Admiral.
    Thank you, Mr. Chairman.
    Mr. Caponiti. Sir, can I respond? From the standpoint of 
MARAD, we have been very, very involved in this effort. We are 
not the regulatory authority on the Security Directives, but, 
with respect to all of that, we have been working with Coast 
Guard and we have been in the interagency.
    On the issue of the port states, with respect to cargo 
preference, we will get very involved with that. We will work 
with State Department. I believe your intervention is a good 
one, and we will take a very aggressive look at that and work 
to get those protocols worked out from the standpoint of 
delivery of food aid into these countries.
    Mr. Taylor. Can you get back with me within two weeks as to 
what your initiatives have been?
    Mr. Caponiti. Yes, sir. We will give you what our 
initiatives are and we will give you a plan. Thank you.
    Mr. Taylor. Thank you, Mr. Chairman.
    Mr. Cummings. Mr. Larsen.
    Mr. Larsen. Mr. Chairman, as we move forward on this, I 
hope that you will involve me and my office as well, in trying 
to sort this out. One of the concerns I have had about this is 
the open-ended commitment of our own military assets to this 
mission. It is one of those where there is no end in sight at 
this point.
    Because, as we have heard, perhaps not today, but certainly 
in looking at the broader situation of piracy in the Gulf of 
Aden and the Indian Ocean, it is a problem that exists in large 
part because of the desperation of the pirates themselves, 
which is therefore tied to the social and economic conditions 
in Somalia. And an open-ended commitment of our Navy and our 
Coast Guard to that region, protecting U.S.-flagged vessels or 
being part of a joint task force, as they are, isn't going to 
solve that problem that is on the coast.
    So we hope that we keep that in mind, as well as keep in 
mind certainly the other commitments that we have and many 
other priorities that we have around the world, and we are 
asking our men and women in the Navy and the Coast Guard, as 
well as our other men and women in the military, to participate 
in.
    So my concerns about the use of our men and women or having 
even security detachments on U.S.-flagged vessels really 
derives from that point, when does this end; otherwise, we will 
be doing this--again, it will be an open-ended commitment with 
a growing number of priorities in the world for our military. 
So I am hoping that we can have that part of the discussion as 
we try to craft a solution on this. There is no need to go into 
what all those commitments are; we can read about them every 
day in the paper, so I won't get into that.
    For Mr. Frothingham, a couple questions. And, again, I 
apologize for being late, but in your testimony you stated that 
the international community has turned over about 146 pirates 
over to law enforcement officials in various countries for 
prosecution. How many of those that have been captured have 
been actually released, do we have that number?
    Mr. Frothingham. I can try and get the best. I don't have 
that number with me today. And it changes depending on what the 
reporting is.
    Mr. Larsen. Sure. Well, I would appreciate it if we can get 
that number perhaps as a marker to see how successful or 
unsuccessful the prosecution efforts have been.
    Are there any significant non-liquid assets held by pirates 
that would be possible to freeze, and is that a realistic 
approach to combating the piracy? Probably not of the 
individual pirates themselves, but basically the clans that are 
running the operations?
    Mr. Frothingham. That is a great question, and part of the 
problem is that it is very, very hard to track. We are working 
on it. We haven't been able to break into it; staged mainly in 
the country of Somalia or used to bankroll other operations.
    Mr. Ikins might have more information.
    Mr. Larsen. Mr. Ikins?
    Mr. Ikins. Sir, I can tell you that that is something that 
we have been looking at, and, in fact, next week, in New York, 
at the meeting of the Contact Group on Piracy off the coast of 
Somalia, we are probably going to suggest that there be a 
international group established to look into that and to see 
how we can coordinate with our international partners to 
address that issue.
    Mr. Larsen. Is that going to be done under a U.N. auspice 
or is it an ad hoc group coming together?
    Mr. Ikins. It is an ad hoc group. It is done at the U.N., 
but it is not a U.N. organization. But it does take guidance 
from the two U.N. Security Council resolutions, 1846 and 1851, 
that refer to piracy off the coast of Somalia. But it is a 
group, in accordance with the Counterpiracy Action Plan, which 
directed the interagency to stand up International Contact 
Group. That was done so in January in New York, shortly after 
this plan came out, and it was spearheaded by the United 
States.
    Mr. Larsen. So what you are telling us today, then, is one 
part of taking action, we are going to see some of that action 
taking place next week is to establish this Contact Group to 
begin looking at how we can look at freezing some of these non-
liquid assets as a way to maybe strangle, metaphorically, the 
financial pipeline to the--hopefully, the leadership in the 
clans as a way to put a crimp in the piracy.
    Mr. Ikins. Yes, sir. And you are correct, it is difficult. 
That is out of my lane, that particular functional issue, but 
it is difficult, and what Mr. Frothingham says is accurate, 
that a great deal of this money does stay within Somalia, and I 
am sure you have read the stories about the villas and the 
cars.
    Mr. Larsen. Right.
    Mr. Ikins. So it is something that does need to be focused 
on, to go after the month.
    Mr. Larsen. Thank you.
    Thank you, Mr. Chairman.
    Mr. Cummings. Thank you very much.
    Thank you all very much. We will now move on to the next 
panel.
    Mr. Arthur Volkle, Vice President of American Cargo 
Transport; Mr. Philip Shapiro, President and CEO of Liberty 
Maritime Corporation; Mr. Erik Johnsen, President of Waterman 
Steamship Corporation; Mr. Bill Van Loo; Secretary-Treasurer, 
Marine Engineers' Beneficial Association. Sitting at the desk, 
but not testifying, will be Mr. Michael Rodriguez, Executive 
Assistant to the President of International Organizations of 
Masters, Mates & Pilots; Mr. Paul Doell, Director of 
Legislative Affairs, American Maritime Officers; and Mr. 
Augustin Tellez, Executive Vice President, Seafarers 
International Union.
    Mr. Volkle?

 TESTIMONY OF ARTHUR J. VOLKLE, JR., VICE PRESIDENT, AMERICAN 
CARGO TRANSPORT; PHILIP J. SHAPIRO, PRESIDENT AND CEO, LIBERTY 
  MARITIME CORPORATION; ERIK L. JOHNSEN, PRESIDENT, WATERMAN 
   STEAMSHIP CORP; BILL VAN LOO, SECRETARY-TREASURER, MARINE 
 ENGINEERS' BENEFICIAL ASSOCIATION; ACCOMPANIED BY MICHAEL J. 
RODRIGUEZ, EXECUTIVE ASSISTANT TO THE PRESIDENT, INTERNATIONAL 
 ORGANIZATION OF MASTERS, MATES & PILOTS; PAUL DOELL, DIRECTOR 
    OF LEGISLATIVE AFFAIRS, AMERICAN MARITIME OFFICERS; AND 
     AUGUSTIN TELLEZ, EXECUTIVE VICE PRESIDENT, SEAFARERS 
                      INTERNATIONAL UNION

    Mr. Volkle. Thank you, Mr. Chairman. Let me say at the 
outset that we really appreciate your comments and the comments 
of the rest of the Committee. I think you all get it, the 
problems that we are facing everyday with our ships operating 
in the Gulf of Aden and the Persian Gulf.
    American Cargo Transport regularly operates through the 
Gulf of Aden, carrying U.S. military cargoes. In addition, we 
have tug and barge units that operate around the clock in the 
Persian Gulf delivering military cargoes into Iraq. So the 
threat of piracy is one that is very real to us.
    The primary principle that we follow when we send our 
vessels there is the protection of our crews, and for a number 
of years we have firmly believed that the way to protect our 
crews and our vessels is to provide armed security; and we have 
provided armed security on ACT vessels for a number of years.
    Even the Navy and the Coast Guard has flat-out said that if 
you want to protect your ships, the way to do it is to provide 
armed security, and we do. That being said, there are 
significant legal and regulatory problems that we think need to 
be addressed.
    As a threshold matter, we continue to believe that the 
security of our vessels should be provided by the U.S. Navy or 
the Coast Guard. For 200 years, those of us who fly the U.S. 
flag have sailed secure in the knowledge that we sailed under 
the protection of the U.S. Navy, until now. The Navy seems, as 
you indicated, reluctant to provide armed security for our 
vessels, and we think that this is an achievable solution in 
the short and near term.
    We understand there is a million miles of ocean out there, 
and to attempt to deploy fleets to protect the U.S.-flagged 
vessels is difficult, if not impossible. But, Mr. Chairman, as 
you indicated, with about 100 guys, less than a crew of one 
ship, the Navy could put, or the Coast Guard could, put armed 
security people on board the three to seven U.S.-flagged 
vessels that regularly operate in that area. It seems the most 
cost-effective way to very rapidly provide security for our 
ships.
    That being said, if the DOD is not going to provide that 
security for our U.S.-flagged vessels--and let me also add that 
if the Navy or Coast Guard were to step up and provide that 
kind of security, that gives another inducement for others to 
register under the U.S. flag; and as one of the largest U.S. 
flag operators, we think that encouraging people to fly the 
U.S. flag is a good thing.
    But if DOD is not going to provide that support for us and 
leave us to defend ourselves, then our Government needs to help 
us, and the first thing that they need to do--and Mr. Taylor 
referred to this--is to fix the ITAR regs and allow us to 
adequately arm our vessels. We currently do arm our vessels, 
but we do it through a regulatory workaround where, because we 
cannot purchase weapons for our vessels and put that as part of 
the security equipment on the vessel, the only way we can get 
weapons on our vessels is for the crew to sign for these 
weapons as personal effects. Obviously, that raises liability 
concerns for them, and it creates all kinds of problems trying 
to get the weapons onto the ships.
    As a recent example, about two months ago we loaded a 
military cargo at a Navy base in Charleston, South Carolina. We 
showed up at the front gate with our weapons, asked for an 
escort to the ship with our weapons, and we were not permitted 
to enter the base with our weapons. We had to move our ship to 
a commercial pier to put weapons aboard to defend military 
cargo, even when the Navy says the only way to ensure 
protection of the ships is to put weapons on the ships. So we 
need to get the regulatory fix for this problem to allow us to 
adequately arm.
    In addition to that, the U.S. Government has got to work 
with foreign governments to allow our ships to enter their 
ports. Again, Mr. Taylor noted we are giving food aid cargoes 
to these countries, and they are not permitting our armed 
vessels to come into their ports. Fortunately, I will say, for 
the ports that we operate in in the Persian Gulf, in Dubai and 
Kuwait and Iraq, we are permitted to bring weapons in; but 
there are a lot of ports where that is a problem. So the 
Government needs to address that.
    We also need to be confident that we have the full support 
of the United States Government if we run into a problem out 
there. And I am not talking necessarily about responding with 
Navy ships; I am talking about if we get into an armed 
conflict. Fortunately, we haven't had that happen, and I will 
say we have been approached by pirates. Our armed security team 
went out on the stern, brandished their weapons; the pirates 
turned around and went the other way. But if we have a problem, 
we need to know that the State Department and the Coast Guard 
is going to support U.S.-flagged mariners and U.S.-flagged 
owners if other countries start to raise problems.
    My testimony points out a number of other kind of detailed 
issues that we think need to be addressed. One, of course, is 
the liability concerns that were referenced in the prior panel, 
and I am happy to answer any further questions on that.
    Thank you, Mr. Chairman.
    Mr. Cummings. Thank you very much.
    Mr. Shapiro?
    Mr. Shapiro. Mr. Chairman, Mr. LoBiondo, distinguished 
Members of the Committee, thank you for the opportunity to 
testify on the important issue of piracy. As you know, one of 
our vessels, the U.S.-flagged vessel LIBERTY SUN, was attacked 
by pirates off the coast of Somalia on April 14th, just two 
days after the incredible rescue of Captain Phillips of the 
MAERSK ALABAMA. Thankfully, no one the crew of the SUN was 
injured, despite the vessel being hit by four rocket-propelled 
grenades and automatic weapons fire, and the SUN arrived safely 
at Mombasa, Kenya on April 15th.
    The LIBERTY SUN was on a humanitarian mission of mercy to 
deliver much-needed U.S. Government food aid to East Africa, 
47,000 metric tons of food, as a gift from the American people. 
The SUN's cargo alone is enough to feed 250,000 people for a 
year in several African countries, including Somalia.
    Without revealing operational details for fear of assisting 
the pirates, I can say that one of our vessels is almost always 
in or near the danger area at any given time. So we take the 
threat of piracy very, very seriously.
    Our company and our crew implemented enhanced precautions 
to make our vessels difficult pirate targets prior to the 
recent incidents. Captain Donald Grosse and the rest of the 
crew followed our company's security plan and kept their cool 
under fire. No boarding occurred and the crew did everything 
that could reasonably be asked of them. At the time of the 
attack, our anti-piracy security measures exceeded Federal and 
international requirements. The only thing we couldn't do was 
shoot back.
    We also wish to thank the U.S. Navy for their prompt and 
effective response to the incident, and are especially grateful 
to General Duncan McNabb and Admiral Ann Rondeau of TRANSCOM 
for their help in the LIBERTY SUN incident.
    Mr. Chairman, I know you would like us to focus on lessons 
learned. We believe the first lesson is to acknowledge the 
foresight of Congress in enacting the Maritime Transportation 
and Security Act of 2002. Under that Act, shipowners are 
required to conduct vulnerability assessments and adopt vessel 
security plans for approval by the Coast Guard.
    In the case of our company, we adopted, prior to the MAERSK 
ALABAMA incident, stringent vessel security plans containing 
every measure recommended by every international organization 
to make our vessels difficult piracy targets.
    Our priority is the safety and security of our crews. For 
example, the crew of the SUN had rigged fire hoses over the 
stern to create a virtual flood wall of water coming off the 
ship. When the BAINBRIDGE arrived, the crew informed Captain 
Grosse that they had never seen so much water coming off a 
vessel. In addition, the crew erected plywood barricades over 
the stern of the vessel.
    The second lesson that we should all recognize and deal 
with are the limitations of these passive security measures. It 
is unwise to assume that such security measures will be 
sufficient in and of themselves to protect American lives. The 
MAERSK ALABAMA incident constitutes a game changer in this 
regard. After the incident, self-proclaimed pirate leaders 
issued direct threats against the lives of American merchant 
mariners. Therefore, Mr. Chairman, I urge our Government to 
adopt more protective measures for U.S.-flagged vessels.
    We greatly appreciate the Navy's response to the LIBERTY 
SUN incident and we are grateful to both DOD and the European 
Union for the cooperation we have received to date. But 
responding after the fact, as you pointed out, sir, in our view 
is not the most effective means of protecting the few U.S.-
flagged vessels transiting the pirate danger zone.
    We urge the Government to consider embarking small numbers 
of U.S. Government security personnel on those very few U.S.-
flagged vessels that transit the high-risk pirate infested 
areas. In our view, small embarked security teams are a more 
effective deterrent than patrolling the entire million square 
miles of ocean that are affected. Also, using small security 
teams is a much more cost-effective response than attempting to 
patrol the million square miles.
    I am also reminded of a bit of history on this point of 
dealing with pirates. The first Federal naval force, which 
became the U.S. Navy, was authorized in the Naval Act of 1794 
for the express purpose of dealing with pirates. In the words 
of the law, it had become necessary to have a Navy to provide 
for ``protection against the depredations committed by the 
Algerine corsairs on the commerce of the United States.'' We 
would hope that these roots run deep and the Navy continues to 
provide the protections against modern piratical acts.
    The third lesson we should consider is the possibility of 
arming our U.S.-flagged vessels and making the legal changes 
necessary to do so. Heretofore, merchant vessels simply have 
not routinely carried firearms. It is true that we have an 
unquestioned right of self-defense under a U.S. statute dating 
back to 1819. But more recently enacted State Department arms 
export regulations make it difficult to arm vessels. 
Additionally, shipowners risk being second-guessed in both U.S. 
and foreign courts for self-defensive measures that were common 
in 1819.
    In light of the recent threats to recent merchant mariners, 
we respectfully request Congress consider clearing the legal 
obstacles that currently block shipowners from arming our 
vessels in self-defense to protect our crews when it is 
appropriate.
    I believe, sir, that we are doing all we can within the law 
to protect our crews. We look forward to working with you and 
other Members of the Subcommittee and other leaders to bring 
the U.S. law up to date. I also hope we can come to an 
understanding that we can't switch from a no firearms regime to 
an armed protection regime overnight. Our ships need protection 
now, not months from now. In the interim, we will need either 
Government security teams or naval vessel escorts in the danger 
high-risk transit.
    The piracy problem has correctly been described as an 
international problem that needs an international solution. But 
we should not let the complexity of the international problem 
deter us from addressing what could be done in the United 
States right now to protect our American merchant mariners on 
U.S.-flagged vessels, and most especially those on missions for 
the U.S. Government.
    Thank you for inviting me to appear, and I would be pleased 
to answer any questions you may have.
    Mr. Cummings. Thank you very much.
    Mr. Johnsen.
    Mr. Johnsen. Thank you, Mr. Chairman and Members of the 
Committee. As the President of Waterman Steamship Corporation 
and Central Gulf Lines, both of which are Section 2 U.S. 
citizen companies that own and operate 13 U.S.-flagged 
commercial vessels in the international and domestic trades, I 
appreciate the opportunity to address the continuing threat of 
piracy against commercial vessels in the U.S.-flagged and 
international-flagged fleets.
    Waterman operates the MAERSK ALABAMA under charter. It is 
the employer of its crew, who were engaged in the recent piracy 
incident off the coast of Somalia last month. The safety and 
protection of our dedicated vessel crews have been and continue 
to be our primary concern.
    Given the nature of the military and commercial cargoes 
that we carry, the U.S.-flagged vessels of Waterman and Central 
Gulf frequently ply the trade lanes through the Gulf of Aden 
and other waters off the East Coast of Africa. Likewise, a 
significant portion of the U.S.-flagged fleet engaged in 
foreign trade operates in these very waters. Consequently, 
unimpeded navigation in these same waters must be maintained to 
preserve the commercial viability of the U.S.-flagged merchant 
fleet and its ability to support the Nation's economy and 
military interest.
    However, as we know all too well, the threat of piracy 
continues to exist in the Gulf of Aden and Somali basin. That 
threat directly affects U.S. security, foreign policy, economic 
and other vital national interests. Just a few weeks ago, 
MAERSK and Waterman directly confronted the reality of that 
very threat. The President of the United States and his 
Administration are to be commended for the measures and 
effective response to the piracy incident. Additionally, our 
Country should be extremely proud of the U.S. Navy and its 
highly trained personnel for their actions. And certainly the 
single focus of our entire company was to work towards the safe 
return of Captain Phillips and his crew, who are proud members 
of the MMMP, MEBA, and the SIU.
    But the Nation's national will and that of our U.S. 
Government must be appropriately directed to eliminate the 
threat of piracy in the Horn of Africa region. We all recognize 
that the long-term solution is to work multi-nationally to 
eliminate the flow of monies to the pirates and assist in 
establishment of a viable government in Somalia. In the 
interim, immediate steps must be taken to protect U.S. and 
international interest in the region. Therefore, I would offer 
the following observations for purposes of further discussion 
and action by the U.S. Government.
    While the U.S. Government works closely with its 
international partners to diplomatically restore civil order 
and a stable working government within Somalia, we must suggest 
that the basic elements of fear, food, and money should be the 
focal points, as they are a volatile catalyst for continuing 
piracy activities in the Gulf of Aden and Somali basin. Fear, 
in that warlords and other threatened families of young men 
whom they seek to recruit in the life of piracy. Good in the 
fact that warlords and others control a large segment of the 
population in Somalia and use food as a weapon to foster 
support for pirate activities. Third, money, in the vast sums 
of money brought into Somalia through these pirate activities 
only serve to create a destabilizing and reckless desire for 
more and more.
    While those solutions will take time to accomplish, we must 
address the immediate needs to protect U.S. and international 
flagged shipping from the threat of piracy. Our companies 
continue to work closely with the U.S. Coast Guard, the 
Department of Defense, and other U.S. Government agencies in 
the development of best practices, enhanced information sharing 
arrangements, and other actions to address vessel piracy 
issues.
    However, arming vessel crews must not be considered as one 
of the solutions to this vessel piracy problem for a wide 
variety of safety, security, training, and other reasons. 
Commercial vessels are trained and equipped to take non-lethal 
and other protective measures in the event of pirate attacks to 
harden vessels until help arrives. Any use of deadly force and 
other lethal actions should remain the province of highly 
trained and experienced military or security personnel.
    Additionally, we must continue to work with our 
multinational partners to expand air and sea patrols and 
enforcement activities against pirates. Overall, we believe 
that a properly coordinated plan that involves all affected 
countries, vessel owners, operators, maritime labor, insurance 
companies, cargo interests, and related parties can 
substantially reduce the threat of piracy while also decreasing 
the overall protection costs.
    Mr. Chairman, I appreciate the opportunity to testify on 
this vital important matter confronting our Nation and the 
shipping industry. We stand ready to assist you in your efforts 
to address the threat of piracy against all vessels off the 
East Coast of Africa and other regions in the world. Thank you.
    Mr. Cummings. Thank you very much.
    Mr. Bill Van Loo.
    Mr. Van Loo. Thank you, Mr. Chairman and Members of the 
Subcommittee. My name is Bill Van Loo, and I am the Secretary-
Treasurer of the Marine Engineers' Beneficial Association. The 
full maritime union sitting here appreciate the opportunity to 
testify before you this morning.
    To the merchant mariners, our organizations represent crew 
U.S.-flagged vessels that frequently operate in waters where 
the threat of piracy is the greatest. Our members deeply 
appreciate your leadership, Mr. Chairman, in scheduling this 
hearing. We look forward to working with you and your 
Subcommittee to formulate responses to the threats posed by 
piracy which offer the greatest measure of protection for U.S.-
flagged vessels and their citizen crews.
    American mariners working aboard the U.S.-flagged vessels 
transiting through the Gulf of Aden, around the Horn of Africa 
and into the Indian Ocean continue to face an immediate and 
ongoing threat from international pirates. Make no mistake, the 
pirates are targeting U.S.-flagged vessels. As evidenced by the 
Administration's response to the recent attacks on the U.S.-
flagged vessels MAERSK ALABAMA and LIBERTY SUN, the U.S. Navy 
and its personnel have the ability and expertise to effectively 
respond. The Navy officers and sailors attached to the USS 
BAINBRIDGE executed the extremely difficult mission of rescuing 
Captain Richard Phillips, Master of the MAERSK ALABAMA.
    While it is true the pirates never took control of either 
the ALABAMA or the SUN, we, the United States, have to assume 
the circumstances will be different should the pirates hijack 
another American-flagged vessel, and the result may not be 
quite as fortuitous.
    The U.S. merchant marine is the fourth arm of defense. The 
United States cannot allow pirates to force the American flag 
from flying the oceans of the world. Nor can we allow these 
criminals to drive American citizens out of the maritime 
industry. Absent a U.S. merchant marine, our armed forces 
overseas would have to rely on foreign-flagged vessels and 
crews to deliver their necessary machinery, equipment, and 
other supplies.
    The mariners aboard those foreign-flagged vessels may not 
be willing to deliver cargo for the purpose of supplying the 
U.S. military, as was the case in the first Gulf War in 1991. 
Consequently, we are extremely disappointed that the Department 
of Defense has apparently decided that preemptive protection of 
U.S.-flagged vessels and U.S. citizen crews is not their 
responsibility. We strongly believe, first and foremost, that 
it is the responsibility of the U.S. Government to provide the 
necessary protection to life and property aboard U.S.-flagged 
vessels.
    Flying the U.S. flag is an extension of the United States 
itself, regardless of where the ship is operating. The unions 
believe the most effective way to protect its U.S. citizen 
crews is to attach a handful of military personnel to each 
vessel transiting pirate-infested waters. We understand the 
waters of the Gulf of Aden, where recent pirate activity has 
been the greatest, encompasses an enormous area. Yes, an 
international coalition of navies is now patrolling these 
waters, but, nonetheless, vessels are still being hijacked. The 
area is just too large to patrol.
    We also understand that private industry needs to assume 
some responsibility, and any agreement between the 
international maritime community must be balanced, applied 
equally to all nations, and not economically disadvantage the 
U.S.-flagged merchant marine. Our maritime unions are prepared 
to consider any and all steps that may be necessary to protect 
the lives of the men and women we represent. We believe that 
attaching private security teams aboard vessels may provide 
some measure of protection against pirate attacks. These non-
U.S. military teams must be properly equipped and trained to 
take aggressive action when a vessel is under attack.
    However, it should be noted that there are serious concerns 
and risks throughout the maritime industry regarding this 
approach. The employment of private security detachments have 
raised command and liability issues which must be thoroughly 
considered before proceeding in this fashion.
    In addition, Mr. Chairman, we would like to address the 
issue of arming the crew. We categorically reject the notion 
that this should be considered the best, or even a primary 
solution to the problem of piracy, or that it is the answer to 
the threat posed by pirates. Rather, we believe it should be 
considered as only one part of the overall comprehensive 
response. Such a program should encompass only the most highly 
qualified mariners on each vessel who, as determined by the 
shipowner and master, have extensive training and expertise in 
the use of weapons. Conversely, we do not believe that an 
individual should have access to arms aboard the vessel simply 
and exclusively because he happens to hold a certain rating or 
license.
    We would ask, Mr. Chairman, that you and your Subcommittee 
work with us to help eliminate whatever statutory and 
regulatory impediments may exist to the employment of a private 
security force and to allow a limited number of crew members 
access to arms aboard U.S.-flagged commercial vessels.
    In conclusion, we again wish to express our appreciation 
for your efforts, Mr. Chairman, and the efforts of your 
Subcommittee to focus attention on this extremely serious 
problem. We stand ready to continue to work with you and your 
Subcommittee, and we request that our formal statement be 
included as part of the hearing record.
    Mr. Cummings. I want to thank all of you for your 
testimony.
    I might note to the Members of the Committee we have got a 
vote coming up very shortly, so I will be very brief, then we 
will see if we can conclude this hearing before we vote.
    Mr. Van Loo, you wrote in your testimony that maritime 
labor is extremely disappointed that the Department of Defense 
has apparently decided not to accept primary responsibility for 
protecting United States-flagged vessels and their U.S. citizen 
crews. This is a very strong statement. Why do you feel that 
way?
    Mr. Van Loo. We fly the American flag, and we feel that we 
should have force protection in dangerous waters.
    Mr. Cummings. And you have indicated that maritime labor 
feels that the issue of arming crews should not be considered 
the best or even a primary solution to the problem of piracy. 
What are some of the challenges that arise if a crew is armed 
on a U.S.-flagged merchant vessel?
    Mr. Van Loo. Well, the challenges would be that they would 
have to have the proper training and also the willingness to 
use a weapon. Some people are just not comfortable using a 
firearm.
    Mr. Cummings. You know, you were saying, Mr. Volkle, that 
you all have folks armed now, is that right?
    Mr. Volkle. Yes, Mr. Chairman.
    Mr. Cummings. How do you determine which ships you are 
going to try to have armed personnel on?
    Mr. Volkle. Every vessel that we send through the Gulf of 
Aden or operating in the Persian Gulf has armed security from 
the moment they hit Suez until the moment they leave Suez. So 
every one of our vessels has an armed security team deployed.
    Mr. Cummings. A little earlier, I am sure you all heard Mr. 
Baird's questions, when he was talking about private industry 
and the Government paying, and that industry realizes that this 
is like a tax, that they are going to have some problems, that 
it is going to be like a tax, and that the question becomes 
where does the Government, from a financial standpoint, where 
does the Government draw the line. Could you comment on that?
    Mr. Volkle. I would be happy to.
    Mr. Cummings. Or any other----
    Mr. Volkle. I would be happy to.
    Mr. Cummings. Sure.
    Mr. Volkle. To date, we have basically eaten the cost of 
providing armed security on our vessels because of our concern 
for the safety of our crew. That being said, and it was pointed 
out here, we are carrying U.S. military cargoes, and we believe 
that the U.S. Government, if they are not going to provide 
military security, which we think they should, the U.S. 
Government ought to assist with the cost of providing armed 
security to protect our vessels.
    Mr. Shapiro. Mr. Chairman, if I could just answer. Our 
opinion is that it is the sovereign's responsibility to protect 
the U.S.-flagged fleet and its U.S. citizens abroad. It is the 
history of the Navy. I believe that it was Thomas Jefferson 
that sent the Marines, before the Navy was even constituted, to 
clear out the pirates on the Barbary Coast in Africa, now 
Lybia, which were attacking U.S.-flagged vessels.
    No one has a problem with cost here, sir. We are willing to 
pay for it. The implication that we have not, that it is a 
money issue is not really the question. It is a legal issue. 
There are some people that have put armed guards on vessels. 
There are others--my attorneys tell me that there are too many 
uncertainties both with regard to the ITAR regulations and, 
more importantly, being able to get into the recipient nation's 
ports, because they are the ones, often, on the food aid 
cargoes, that bar the use of weapons.
    So I don't believe cost is an issue. I believe we need to 
clear the impediments. If the Government is not going to do 
what all of us believe is their job, then let us help ourselves 
by providing that security. But we need to clear the legal 
impediments and the uncertainties that exist to do that.
    Mr. Cummings. Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    Thanks to our panel. It was a very interesting discussion 
with different points of view.
    For Mr. Van Loo, I heard you very clearly and your strong 
suggestion that we not arm crew members or have them have 
access to firearms, but let's work under an assumption for a 
minute that the military is not going to or does not deploy 
personnel on U.S.-flagged vessels, and arming the crew, for 
whatever reason, is determined to be a necessity. Now, you 
talked a little bit about what procedures should be followed. I 
would like to make sure I understood correctly. What criteria 
do you think should be followed to accomplish this, and 
specifically, who on the crew should be authorized to either 
carry or have access to firearms? And what kind of training, in 
your view, would be necessary for them to do this?
    Mr. Van Loo. First, on the training part, it would take at 
least a comprehensive course of getting used to using certain 
weapons, shotgun, rifle, even an AK-47, because that is what 
the pirates are using, and you can purchase them in Somalia for 
$30.
    As far as who would have access to the firearms, it would 
always be under the control of the master of the vessel. But 
who would be able to utilize them, in my opinion, it would be 
any one of the top eight officers, not necessarily the top 
four, but whoever is willing and trained to utilize them.
    And I will fall back on arming the crew, that if it is the 
only alternative, it is because we don't want to bring a knife 
to a gunfight, and that is what we are being asked to do now.
    Mr. Tellez. Congressman, if I might.
    Mr. LoBiondo. Yes, sir.
    Mr. Tellez. Currently, at the Seafarers School, since 2003, 
we have trained approximately 600 people in small arms 
training, what we call small arms course, and that 600 includes 
140 Coast Guard, by the way. They are trained in small arms 
training, pistols, 9 millimeter, riot shotgun, M-14, and M-16 
semiautomatic weapons. They are trained on how to use them; 
they are trained on how to safely handle them. But there is no 
amount of training that we can give them in that short period 
that is going to prepare them to take into consideration rules 
of engagement. It takes a long time for law enforcement 
officers to--it takes a short time to teach someone how to 
shoot a gun; it is a little bit longer to teach them when to 
shoot the gun. So although we can teach them the practical 
training, it is going to take a little bit longer with 
reinforced drills on board the vessels to have them understand 
rules of engagement.
    Mr. LoBiondo. I appreciate that. Is that course certified 
by anyone, certified by the Coast Guard or----
    Mr. Tellez. Certified by Military Sealift Command.
    Mr. LoBiondo. Military Sealift?
    Mr. Tellez. Yes.
    Mr. Van Loo. All four unions have training.
    Mr. Tellez. And ours was set up by that aforementioned 
different colored water organization.
    Mr. LoBiondo. I think we know who you mean.
    Okay, thank you, Mr. Chairman.
    Oh, excuse me. Mr. Rodriguez.
    Mr. Rodriguez. Yes, thank you, Mr. LoBiondo.
    Just to kind of go back and make a little more clear what 
our perspective is, we prefer to have armed military security 
teams on board our vessels because they would be acting as an 
agent of the United States Government, and, from our 
perspective as labor, liability attaches personally to our 
masters and our officers on board those ships. Now, that 
attaches whether we have a private security team on board or if 
we are carrying the weapons ourselves. So that is why we have 
such a strong statement on why we want military teams.
    There was a suggestion before of how that might happen, 
reservists. For some time, Puerto Rican National Guardsmen were 
deployed on board vessels. So there are ways to do this if 
there is a willingness to do it, and that is where our 
disappointment is, is that there seems there is no willingness.
    In terms of the training, we train our people to basically 
use the weapon, but when you start to talk about using the 
weapon and ramping up the use of force on board a ship, that is 
training that is very specialized. And as someone just 
mentioned, it is now how to use the weapon, it is when to use 
the weapon. And, again, those liabilities attach to our people 
personally, and, Mr. Chairman, we have mentioned in this 
Committee that there is a tendency around the world to 
criminalize seafarers for their actions and their mistakes, and 
this is something that we have very, very deep concerns about. 
So that is why, when we say we want armed security teams on 
board that are military, it is for that reason, and the 
training issue is a very touchy one. The level of training that 
is required is something that is a very heavy lift for us.
    Thank you.
    Mr. LoBiondo. Thank you.
    Thank you, Mr. Chairman.
    Mr. Cummings. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman. I would like to 
caution us in referring to when President Jefferson sent our 
Navy over to battle the Barbary pirates, because in order to 
get out of that situation, we, first off, had someone to 
negotiate with and, second, we didn't pay a tribute because we 
wouldn't do that, and we wouldn't pay a ransom because we 
wouldn't call it that. But in order to get our ship back, we 
paid money to the folks who held it. So if we are willing to 
play the analogy out fully, let's find someone to negotiate 
with and start paying ransoms. And I don't think the U.S. 
Government is going to do that, and I wouldn't want it to 
happen, anyway, that way. So we need to be careful about our 
historical analogies, because I think there are a lot of 
differences between 2009 and 1801 through 1804, 1805-ish.
    I would like to do some follow-up at some point, perhaps 
not today, with some of the folks here in the labor community 
to understand their concerns a little bit more. The rules of 
engagement are an important issue and one of the challenges 
that we face right now on the rules of engagement is the fact 
that we talk about having U.S. Navy vessels there. We are in a 
joint task force with the U.K., I think Korea and Singapore. We 
are potentially negotiating with other countries to be part of 
that joint task force. The EU also has their own task force. 
The Chinese are over there operating independently. There is 
some talk that the Iranians are going to deploy a destroyer and 
an oiler as well.
    There is enough of a mess of rules of engagement among four 
or five different command authorities, if you will, much less 
than having armed military folks on these ships or arming you 
and your members on these ships, and what that might mean if 
you are getting assistance or if a U.S.-flagged vessel is 
getting assistance from a non-U.S. military vessel; who is 
talking to who, how are you talking? Say if the Koreans come to 
help, there is a rules of engagement and a communication 
problem as well.
    So it might be very particular, it might be a situation 
that would never exist, but then, on the other hand, I don't 
think we necessarily foresaw the MAERSK ALABAMA situation 
happening, either. So thinking about who is going to be armed, 
who is going to be protecting which ships on the ship itself is 
partly a discussion that we have to consider within the broader 
context of whose militaries are deployed out there, who is 
helping to respond to which pirate events, because you all are 
going to be in a position of having to potentially be 
communicating and/or receiving help from folks that you maybe 
didn't expect to get help from.
    So my only point is it is a complex picture out there and I 
want to be helpful in trying to simplify it as much as possible 
to ensure the protection of the goods, ensure the protection of 
the ship, and ensure the protection of the people on the ship. 
So that is the direction I want to head on this, but I think we 
need to have a better--well, you all have a much better 
understanding than I ever will. We need to have a better 
understanding of the context in which you all are operating out 
there. So I just wanted to offer that and explain where I am 
coming from on this.
    Yes, Mr. Shapiro.
    Mr. Shapiro. Mr. Larsen, thank you, and I appreciate your 
thoughts. I just would like, for the record, for it to be known 
that the Chinese government is escorting Chinese ships in the 
area. The Russian government is escorting Russian ships. The 
Belgians are taking care of Belgian ships after two of their 
ships were hijacked. And the French are now taking care of the 
French ships. So it is not unprecedented that national 
governments protect the nation state of their flag.
    Mr. Larsen. I would also suggest, with apologies to our 
good friends in all those countries, that they are not doing 
much else in the world. So my issue there is the other 
commitments that our U.S. Navy has and the Coast Guard has in 
the rest of the world, we need to take that into consideration. 
If we had a 313-ship Navy, which we are trying to get to, and 
we don't have it, this would be a much simpler discussion to 
have.
    My only suggestion is to have a broader conversation about 
what our priorities are, including this priority, and how we 
get that support and security out to you. We are trying to get 
to that 313 ship Navy. I know the exact ships that we put out 
there. They wouldn't be destroyers, they would be LCS. They 
would be flying around at 16 knots and there is no way these 
guys would be able to run away from us. It would be great. But 
we are not there yet.
    Mr. Shapiro. But just so you know, that is why we are here. 
We are here because if the Government can't do it because it is 
over-extended, then we need to be put in a position where we 
can do it ourselves, and we need to remove the legal 
impediments that stand in the way. And we need to do it 
quickly. There is a sense of urgency here.
    Mr. Larsen. I am for all of it. I am for solving it. I just 
want to be clear that it is not a matter of picking some up and 
putting down. But we will get there.
    Mr. Shapiro. Thank you.
    Mr. Volkle? Yes, you would like to get a whack at me. Go 
right ahead.
    Mr. Volkle. No, sir. Just to point out, again, we 
understand that putting 100 ships out there is neither 
realistic nor effective, and that is why we think armed 
security teams, for less than a crew of one ship, we can 
protect the U.S. flag.
    With respect to rules of engagement, that is obviously a 
concern, but we need to have rules of engagement that 
absolutely permit the people on the ship to make the decisions 
that they need to make to protect themselves from pirates. They 
can't be a requirement to call Washington and get approval. But 
that is something that needs to be addressed.
    Mr. Cummings. Thank you very much.
    Gentlemen, I want to thank all of you for your testimony. I 
think that you understand that we are going to do everything in 
our power to move this situation along. What form that will 
take, I don't know, but I promise you we will work with the 
Coast Guard and others in our Defense Department to see what we 
can do to bring clarity.
    Having been a small businessman, I always tell people in 
government that the one thing that business folks need, they 
need people to make decisions so that they can then do what 
they need to do. When we are in these areas of suspense, grey 
areas, basically what it does is it causes all kinds of 
problems, and in this instance possibly it could cost lives. So 
we have got work to do. I promise you, I promise we will 
address this with the utmost urgency, and, again, we thank you 
so much for your time.
    This hearing is now adjourned.
    [Whereupon, at 12:18 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T9954.012
    
    [GRAPHIC] [TIFF OMITTED] T9954.013
    
    [GRAPHIC] [TIFF OMITTED] T9954.014
    
    [GRAPHIC] [TIFF OMITTED] T9954.015
    
    [GRAPHIC] [TIFF OMITTED] T9954.016
    
    [GRAPHIC] [TIFF OMITTED] T9954.017
    
    [GRAPHIC] [TIFF OMITTED] T9954.018
    
    [GRAPHIC] [TIFF OMITTED] T9954.019
    
    [GRAPHIC] [TIFF OMITTED] T9954.020
    
    [GRAPHIC] [TIFF OMITTED] T9954.021
    
    [GRAPHIC] [TIFF OMITTED] T9954.022
    
    [GRAPHIC] [TIFF OMITTED] T9954.023
    
    [GRAPHIC] [TIFF OMITTED] T9954.024
    
    [GRAPHIC] [TIFF OMITTED] T9954.025
    
    [GRAPHIC] [TIFF OMITTED] T9954.026
    
    [GRAPHIC] [TIFF OMITTED] T9954.027
    
    [GRAPHIC] [TIFF OMITTED] T9954.028
    
    [GRAPHIC] [TIFF OMITTED] T9954.029
    
    [GRAPHIC] [TIFF OMITTED] T9954.030
    
    [GRAPHIC] [TIFF OMITTED] T9954.031
    
    [GRAPHIC] [TIFF OMITTED] T9954.032
    
    [GRAPHIC] [TIFF OMITTED] T9954.033
    
    [GRAPHIC] [TIFF OMITTED] T9954.034
    
    [GRAPHIC] [TIFF OMITTED] T9954.035
    
    [GRAPHIC] [TIFF OMITTED] T9954.036
    
    [GRAPHIC] [TIFF OMITTED] T9954.037
    
    [GRAPHIC] [TIFF OMITTED] T9954.038
    
    [GRAPHIC] [TIFF OMITTED] T9954.039
    
    [GRAPHIC] [TIFF OMITTED] T9954.040
    
    [GRAPHIC] [TIFF OMITTED] T9954.041
    
    [GRAPHIC] [TIFF OMITTED] T9954.042
    
    [GRAPHIC] [TIFF OMITTED] T9954.043
    
    [GRAPHIC] [TIFF OMITTED] T9954.044
    
    [GRAPHIC] [TIFF OMITTED] T9954.045
    
    [GRAPHIC] [TIFF OMITTED] T9954.046
    
    [GRAPHIC] [TIFF OMITTED] T9954.047
    
    [GRAPHIC] [TIFF OMITTED] T9954.048
    
    [GRAPHIC] [TIFF OMITTED] T9954.049
    
    [GRAPHIC] [TIFF OMITTED] T9954.050
    
    [GRAPHIC] [TIFF OMITTED] T9954.051
    
    [GRAPHIC] [TIFF OMITTED] T9954.052
    
    [GRAPHIC] [TIFF OMITTED] T9954.053
    
    [GRAPHIC] [TIFF OMITTED] T9954.054
    
    [GRAPHIC] [TIFF OMITTED] T9954.055
    
    [GRAPHIC] [TIFF OMITTED] T9954.056
    
    [GRAPHIC] [TIFF OMITTED] T9954.057
    
    [GRAPHIC] [TIFF OMITTED] T9954.058
    
    [GRAPHIC] [TIFF OMITTED] T9954.059
    
    [GRAPHIC] [TIFF OMITTED] T9954.060
    
    [GRAPHIC] [TIFF OMITTED] T9954.061
    
    [GRAPHIC] [TIFF OMITTED] T9954.062
    
    [GRAPHIC] [TIFF OMITTED] T9954.063
    
    [GRAPHIC] [TIFF OMITTED] T9954.064
    
    [GRAPHIC] [TIFF OMITTED] T9954.065
    
    [GRAPHIC] [TIFF OMITTED] T9954.066
    
                                    

</pre></body></html>
